<html>
<title> - EXAMINING THE IMPACT OF EQUIPMENT SHORTAGES ON THE NATIONAL GUARD'S READINESS FOR HOMELAND SECURITY MISSIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




  EXAMINING THE IMPACT OF EQUIPMENT SHORTAGES ON THE NATIONAL GUARD'S 
                   READINESS  FOR  HOMELAND  SECURITY

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2007

                               __________

                           Serial No. 110-41

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
48-916                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001







                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

        Jessica Herra-Flanigan, Staff Director & General Counsel
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ______

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             CHRISTOPHER P. CARNEY, Pennsylvania, Chairman

PETER A. DeFAZIO, Oregon             MIKE ROGERS, Alabama
YVETTE D. CLARKE, New York           TOM DAVIS, Virginia
ED PERLMUTTER, Colorado              MICHAEL T. McCAUL, Texas
VACANCY                              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                    Jeff Greene, Director & Counsel

                         Brian Turbyfill, Clerk

                    Michael Russell, Senior Counsel

                                  (ii)



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     4
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York..........................................    28
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State Colorado.............................................    26

                               Witnesses

Lt. Gen. H. Steven Blum, Chief, National Guard Bureau:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
Maj. Gen. C. Mark Bowen, The Adjutant General of Alabama:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Maj. Gen. Robert P. French, Deptuty Adjutant General, Army, Joint 
  Forces Headquarters, Pennsylvania National Guard:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Maj. Gen. Roger P. Lempke, The Adjutant General of Nebraska and 
  President, Adjutants General Association of the United States:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9

                               Appendixes

Appendix I: Letter submitted by Hon. Bennie G. Thompson..........    41
Appendix II: Additional Questions and Responses
  Responses from Lt. Gen. H. Steven Blum.........................    43
  Responses from Maj. Gen. French................................    45

 
  EXAMINING THE IMPACT OF EQUIPMENT SHORTAGES ON THE NATIONAL GUARD'S 
                READINESS FOR HOMELAND SECURITY MISSIONS

                              ----------                              


                         Thursday, May 24, 2007

             U.S. House of Representatives,
                     Committee on Homeland Security
                Subcommittee on Management, Investigations,
                                              and Oversight
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Christopher Carney 
[chairman of the subcommittee] presiding.
    Present: Representatives Carney, Thompson, Clarke, 
Perlmutter, Christensen, and Rogers.
    Mr. Carney. [Presiding.] The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony on 
examining the impact of equipment shortages on the National 
Guard's readiness for homeland security missions.
    I welcome our four distinguished witnesses.
    My first witness is Lieutenant General H. Steven Blum, the 
chief of the National Guard Bureau. In this capacity, he is the 
senior uniformed National Guard officer responsible for 
formulating, developing and coordinating all policies, programs 
and plans affecting more than half a million Army and Air 
National Guard personnel.
    Prior to his current assignment, General Blum served as 
chief of staff, United States Northern Command. General Blum 
has commanded at every level, including a special forces 
operational detachment, a light infantry battalion, an infantry 
brigade and a division support command.
    He received a bachelor's degree from the University of 
Baltimore, a master's degree from Morgan State University and 
is a graduate of the Army War College.
    Our second witness is Major General Roger P. Lempke. 
General Lempke is the adjutant general of the Nebraska National 
Guard. In this capacity, he commands the state military forces 
and also directs the Nebraska Emergency Management Agency, or 
NEMA.
    General Lempke is also president of the Adjutant General's 
Association, which represents the senior leadership of the Army 
and Air National Guards of 50 states, the District of Columbia 
and the territories of Puerto Rico, Guam and the U.S. Virgin 
Islands.
    He is a graduate of the United States Air Force Academy, 
and logged over 1,600 flying hours while in the Air Force. He 
also graduated with honors from the Air Force Institute of 
Technology.
    Our third witnesses is Major General Mark Bowen, the 
adjutant general of Alabama. General Bowen first joined the 
Alabama Guard at age 16 as an enlisted man, and served more 
than 44 years in the military before becoming adjutant general 
in 2003.
    During his career, he has served as commander of an 
engineering company, a transport battalion, a mechanized 
infantry battalion and ordnance group, as well as in a number 
of staff positions.
    General Bowen earned a pharmacy degree from Auburn 
University in 1965, and later attend the Command and General 
Staff College as well as the Air War College.
    Our fourth witness is Major General Robert P. French, the 
deputy adjutant general of the Army of Pennsylvania National 
Guard. He has served in each of the three major components of 
the Pennsylvania Army National Guard: the Pennsylvania National 
Guard joint headquarters, the 28th Infantry Division and the 
213th Area Support Group.
    In 1997, he was mobilized in support of Operation Joint 
Guard, the U.N. peacekeeping effort in the Balkans.
    General French served as an enlisted man before attending 
Officer Candidate School. He was born in Mount Pleasant, 
Pennsylvania, and is a graduate of Mansfield State College. In 
2001, he earned a master's degree in strategic studies.
    The chair now recognizes the ranking member of the 
subcommittee, the gentleman from Alabama, Mr. Rogers, for an 
opening statement.
    Mr. Rogers. Thank you, Chairman Carney. Thank you for 
calling this hearing on National Guard equipment needs.
    I want to thank our panel for being here, and taking time 
out of their busy schedules.
    And I particularly want to welcome General Bowen, the only 
guy on the panel who talks like me. So we are proud to have you 
here.
    The folks in Alabama are grateful for the outstanding 
service provided by the nearly 14,000 dedicated men and women 
of the Alabama National Guard. Members of the Alabama National 
Guard are serving with distinction in Iraq and Afghanistan and 
they have provided valuable service after Hurricane Katrina.
    Today's hearing will address the state of the readiness of 
the National Guard and will focus on specific equipment needs. 
While the war in Iraq has diverted a good bit of the Guard's 
equipment, it is important to remember that the dual role of 
the Guard envisions this mission.
    Under existing law, the National Guard is double-hatted for 
state and federal roles. The governors may call up the Guard 
for domestic emergences, including natural disasters. The Guard 
also may be called for federal service, such as mobilizing for 
war, under the command of the president as commander in chief.
    For these federal functions, the Department of Defense 
funds 90 percent of the Guard's budget. Guard divisions played 
key roles in major conflicts overseas, including World Wars I 
and II, Vietnam War, and now Iraq and Afghanistan.
    In fact, the Alabama National Guard already has mobilized 
more than 13,000 soldiers and airmen in the global war on 
terror.
    In light of the Guard's dual role, we look forward to 
hearing from our witnesses about a number of key issues, 
including how the adjutants general balance these two dual 
roles in times of emergencies, how the Guard is meeting its new 
mission to back up Border Patrol on the southwest border, how 
the role of the National Guard is evolving to confront the 
terrorist threat, and what additional equipment the National 
Guard will need to fulfill its mission.
    With increasing demands made on the National Guard, both 
overseas and here at home, it is essential that the dedicated 
men and women who serve in the Guard have the support and 
equipment they need to get the job done when called into 
action.
    And thank you, Mr. Carney. I yield back.
    Mr. Carney. I thank the gentleman from Alabama. He has 
shown great leadership on this issue, and it is a pleasure 
working with him.
    I will read my opening statement before turning this over.
    The Management, Investigations and Oversight Subcommittee 
is meeting today to examine the impact that National Guard 
equipment shortages are having on the readiness for homeland 
security-related missions.
    The recent tornadoes in Kansas have brought this issue to 
the front pages, but this has been an ongoing problem over the 
past several years.
    As a lieutenant commander of the Navy Reserves, I know all 
too well the importance of Reserve and Guard units. Aside from 
their brave service with active units in deployments all over 
the world, Guard units serve at the pleasure of their 
respective governors and stands ready to assist their fellow 
citizens in a time of crisis.
    In nearly every major large-scale events or natural 
disaster that has occurred stateside, Guard soldiers are a 
welcome sight for those in need. They are able to bring the 
incredible capabilities of our military to assist in the rescue 
of our citizens and the recovery of our communities.
    Unfortunately, National Guard readiness has been 
compromised by rotations abroad, most notably as part of the 
global war on terror. It is standard operating procedure for 
units to deploy with their equipment.
    In the past, equipment has returned with the Guard, but 
recently, their equipment has stayed in-theater to be used by 
replacement units.
    Our current military commitments around the world have 
proven to be quite a burden on these Guard assets.
    Current production and refurbishments schedules, not to 
mention budgets, are simply inadequate to effectively equip the 
Guard for its dual role.
    While equipment readiness was not 100 percent pre-9/11, it 
has plummeted in the years since. Today the Guard has roughly 
50 percent readiness. Unfortunately, we have already seen these 
numbers translate when it comes to domestic deployments.
    Our Guard members are ready and willing to respond to 
domestic events, but in some cases, are simply unable to do so.
    During the Katrina response, such a large contingency on 
the Louisiana Guard and their equipment was deployed overseas 
that many states responded with a significant portion of their 
assets that would have otherwise been needed. Should there have 
been another disaster in one of those states during the Katrina 
response, the Guard response would have been significantly 
diminished.
    Closer to my home, recent snows and flooding in 
Pennsylvania led to Governor Rendell calling up the Guard. In 
fact, a member of my own staff deployed twice in the last few 
months with his unit.
    In many cases, he deployed in equipment nearly twice his 
age. These vehicles, no matter how well they are maintained and 
cared for, cannot last forever.
    Additionally, while the Guard effectively utilizes the 
Emergency Management Assistance Compact, or EMAC, to share 
equipment, in cases of natural disaster, an hour or 2, or the 
24 hours that it takes to fly a helicopter from New Jersey or 
Ohio or New York to Pennsylvania may be the difference between 
life and death for someone waiting to be rescued from rising 
waters, encroaching fire or whatever the threat.
    I look forward to hearing from the distinguished witnesses 
who agreed to join us today. And I hope that Congress can work 
to find some solutions to these readiness issues.
    Now, I will turn to Mr. Thompson, chairman of the full 
committee, for his opening comments.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I am happy to be here. I welcome our witnesses for the 
hearing today.
    The subject before us today, ensuring that the National 
Guard is equipped and ready for its homeland security mission, 
is not just of interest to certain geographical regions, 
political affiliations, religions or creeds.
    As Hurricane Katrina taught us, disaster happens often 
without much warning, and they do not discriminate in their 
destructive nature. Katrina taught us tough lessons that are 
not easy to admit.
    Even the best planning and preparedness may never be enough 
to safeguard every innocent human life. And the loss of life in 
any emergency is never acceptable.
    Our emergency managers and responders carry a heavy burden 
that all too often goes unrecognized. So do the men and women 
of the National Guard.
    Today the members of this subcommittee will hear testimony 
from some of our nation's most trusted and admired public 
servants, the men and women of the National Guard, our first 
military responders.
    I would like to take a moment to commend General Blum and 
his staff for their commitment to our nation's security, and in 
particular for working as a partner with this committee to 
better secure America.
    Today's hearing is the second in a series that this 
committee will hold to examine the relationship between 
military organizations such as the National Guard and the 
homeland security missions they are increasingly being relied 
on to support.
    We have already heard from previous testimony that the 
National Guard today finds itself at a very tough crossroads, 
pursuing two very important but very different missions, one 
overseas, one here at home.
    No matter what your political beliefs are about the wars in 
Iraq or Afghanistan, certain facts are undeniable. The 
conflicts abroad have left our citizen-soldiers at home without 
enough working equipment and stretched far too thin.
    I look forward to working with my colleagues on this 
committee to empower our first responders, regardless of the 
uniform they wear. Men and women in camouflage, FEMA 
windbreaker, civilian clothing and fire gear all have something 
in common: They all come from our communities, serve our 
communities, and they deserve our support.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Carney. I thank the gentleman, and for his leadership.
    We need to ask for unanimous consent for Mrs. Christensen 
to join us today.
    Without objection, so ordered.
    Thank you for your attendance, Mrs. Christensen.
    Other members of the subcommittee are reminded that under 
committee rules, opening statements may be submitted for the 
record.
    Without objections, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with General Blum.

STATEMENT OF LIEUTENANT GENERAL STEVEN H. BLUM, CHIEF, NATIONAL 
                          GUARD BUREAU

    General Blum. Good morning, Chairman Carney, Chairman 
Thompson, Ranking Member Rogers, other distinguished members of 
the subcommittee. I am honored to appear before you today and 
address concerns--your rightful concerns, I might add--about 
the impact of equipment shortages of the National Guard and 
their readiness to perform homeland security and homeland 
defense missions at the call of the governors.
    Under the federal statute, the Army and Air National Guard 
are, first and foremost, reserve components of the Army and the 
Air Force. As the chief of the National Guard Bureau, my 
primary task is to channel federal resources to all of the 
states and territories so that their states and territorial 
National Guards can provide units that are trained and ready 
and equipped to perform military missions for our Army and Air 
Force.
    But in addition to that, in addition to being a federal 
reserve for the Department of Defense, your National Guard also 
performs missions under the command and control of our nation's 
governors in times of emergency, right here in your ZIP Code, 
in your homeland and in your districts.
    So we are a dual-use force. And we rely on dual-use 
equipment.
    Since the hearing today inquires about the impact of 
equipment shortfalls on the National Guard missions, it is most 
appropriate that I am joined today by three genuine experts on 
this matter. They are adjutants general from three different 
states: from Pennsylvania, Alabama and Nebraska. So we have a 
wide geographical difference. And we also have differences in 
perspective because of the fact that some are Air National 
Guard and some are Army National Guard. But they are the joint 
National Guard commander in their state that serves their 
governor.
    Nationwide, I can tell you that the National Guard prior to 
September 11th, 2001, had approximately 75 percent of the 
equipment that it was required to have against a validated 
requirement that was set by the Army and the Air Force to 
perform our federal combat missions abroad.
    At the beginning of this year, that number was down to as 
low as 40 percent. It today stands at 53 percent, if you are 
talking about homeland defense/homeland security-essential 
equipment. If you are talking about the full spectrum of 
equipment that we require, it is only 49 percent. So roughly 
half of what we need is in our hands here at home.
    The Department of Defense is taking strong, decisive action 
to address the equipment shortages of the National Guard. The 
budget request now before this Congress includes $22 billion 
for Army National Guard equipment over the next 5 years.
    If this money is provided, and if it gets to where it was 
intended to go, these funds would bring the Army National Guard 
only back to its pre-9/11 equipment levels. We are in a post-9/
11 world, and I am not certain that those levels match today's 
requirements.
    This increased level of equipping will improve the military 
combat readiness of our units in the Army National Guard and 
will make them better able to respond in domestic emergencies 
here in the homeland as more equipment becomes available over 
the years.
    I am grateful for the opportunity to appear before the 
subcommittee this morning, and welcome your questions. Thank 
you, sir.
    [The statement of General Blum follows:]

         Prepared Statement from Lieutenant General Steven Blum

    Chairman Carney, ranking member Rogers and distinguished members of 
the subcommittee, thank you for the opportunity to speak to you today 
about military support to civil authorities during disasters. While the 
Army and Air National Guard are engaged with our active duty 
counterparts in combat operations around the world, the National Guard 
also maintains capability to help state governors to respond to 
disasters and other threats to American people here at home.
    The Army and Air National Guard are reserve components of the 
United States Army and the United States Air Force. As such, our reason 
for existence is to provide units ready to be called to active duty to 
meet the Nation's military needs.
    While the National Guard actively provides units to be mobilized 
for duty in combat operations overseas, we also recognize that the 
Nation's governors rely on their National Guard forces here at home to 
provide needed capability to respond to natural disaster or other 
threats inside the homeland. At the National Guard Bureau, we have made 
a commitment to the governors that our goal will be to manage National 
Guard mobilizations and overseas deployments to the degree that we can 
so that no more than 50 percent of any particular state's National 
Guard forces are absent from the state at any given time. The intent is 
to meet the Nation's military requirements overseas and, at the same 
time, to have capability remaining in states here at home to help 
Governors meet domestic emergencies which might arise. In general, we 
have been successful in meeting this goal. In those few instances where 
it has been necessary to mobilize more than 50 percent of a state's 
National Guard, we have worked closely with those governors to help 
them to identify and, if needed, to access National Guard capabilities 
in other states through interstate loans under the Emergency Management 
Assistance Compact.
    The Emergency Management Assistance Compact (EMAC), which was quite 
effective in the response to Hurricane Katrina, is a proven means of 
redistributing equipment from state to state in order to address 
unfulfilled equipment requirements. As we work to improve our domestic 
equipping posture, the EMAC will play a major role in our domestic 
response capability. When a disaster overwhelms the capability resident 
in a state, that state may obtain equipment and forces from neighboring 
states in this way but that, of course, takes time.
    At the beginning of this year, the Army National Guard had on-hand 
approximately 40% of the equipment which it is required to have. When 
equipment is needed but not on-hand at a particular location, it is 
necessary to bring in equipment from farther away either from other 
units within a state, or from other states under EMAC.
    The Department of Defense is taking strong decisive action to 
address the equipment needs in the National Guard. The budget request 
now before Congress includes $22 billion for Army National Guard 
equipment over the next five years. If provided, these funds would 
bring the Army National Guard up to approximately 76% of the equipment 
its stated requirement. This increased level of equipping will not only 
improve the military combat readiness of our units in the Army National 
Guard but will also decrease response times to domestic emergencies 
here in the homeland as more equipment is available in the states.
    I am grateful for the opportunity to appear before the committee 
today and welcome your questions.

    Mr. Carney. Thank you, General.
    I now recognize General Lempke to summarize his statement 
for 5 minutes.

STATEMENT OF MAJOR GENERAL ROGER P. LEMPKE, ADJUTANT GENERAL OF 
   NEBRASKA, PRESIDENT, ADJUTANTS GENERAL ASSOCIATION OF THE 
                         UNITED STATES

    General Lempke. Good. Thank you very much, Chairman Carney, 
Chairman Thompson--good to talk to you again--and Ranking 
Member Rogers. Thank you very much for holding this hearing.
    Again, I am here today to really represent and to try to 
convey to you as best I can the overall feelings and attitudes 
of the 54 adjutants general from our states and territories.
    The loss of National Guard equipment due to fighting 
terrorism has caused two issues for us.
    First the equipment often most valued for disaster response 
has been that most often left behind overseas. We are talking 
Humvees, trucks, communications equipment, engineering 
equipment, helicopters, just to name a few items.
    And secondly, the equipment shortages have become more 
uniform and widespread throughout the nation. Whereas 
previously, before 9/11, there might have been pockets where 
there was sufficient equipment, pockets where there was 
deficient equipment, what I see now and sense is throughout the 
nation a general reduction in levels in every single state.
    I did a quick poll of the adjutants general prior to this 
hearing, asked them some key questions with regard to their 
ability to go to war and their ability to serve their state in 
times of disaster.
    When you talk about the go-to-war situation, as General 
Blum pointed out, with 50 percent of our equipment generally 
available to us, it is very difficult to train and guarantee 
readiness if we are indeed called back to the theater of 
operations.
    When it comes, though, to supporting our homeland security 
needs within each state, opinions somewhat differed. Most TAGs 
feel that they can have just as sufficient equipment to handle 
those disasters that we have experienced in the past.
    So to characterize our equipment shortage, I would say that 
we are generally equipment shallow throughout the nation. And 
let me just talk about that for a moment.
    First, it is important to, again, understand how this is 
measured. Typically, the measurements that you hear about are 
those compared against our wartime task listing. We have a list 
of equipment that we need to go to war, and we are measured, at 
the national level, about how close we are to having all that 
equipment. That is the 50 percent number that you hear about.
    The next item that we look at, as a general, is how much 
equipment do we need to train? We don't need everything we have 
to go to war for to train, but we need some of it. And though 
there is always--that struggle, is, ``Do we have enough 
equipment without out states to conduct efficient and effective 
training?''
    And then the last factor we look at is, do we have 
sufficient equipment in the state to cover what we see as 
foreseeable disasters that can occur in our individual states. 
And there, we have to look at both quantities of equipment, but 
also geographic dispersment of that equipment for rapid 
response.
    I will point out that there are measurements for the number 
one wartime item. I am not aware of actual measurements out 
there for what our in-state needs are. And, perhaps, that is 
something that needs to be developed.
    Let me give you an example about Nebraska. I have a truck 
company out West in Chadron, Nebraska. Overall in the state, we 
are supposed to have 324 five-ton trucks throughout the state 
of Nebraska. Some of those go to that company out in Chadron. 
Of that number, I have 147 in the state.
    When you take a look at my wartime readiness, that is about 
50 percent. But when I take a look at having 147 five-ton 
trucks in Nebraska for emergency operations, I am dispersed 
throughout the state well enough where that is fine. So whereas 
my wartime readiness is down, at least in that item, I am 
sufficient.
    When I take a look at helicopters, where all our 
helicopters are UH-60s and deployed overseas, I have a couple 
of loaders and some CH-47s, we are on the ragged edge in 
Nebraska.
    So those are the kinds of things that we look at.
    I would like to conclude here by just making some 
recommendations.
    Fixed-wing or rotary-wing aircraft, UH-60s, CH-47s, the 
quantities have gradually diminished due to wartime losses and 
so forth. There are programs before Congress that will restore 
our rotary-wing aviation. That needs to continue and proceed at 
full vigor if we are going to support large disasters such as 
Katrina.
    Guard Empowerment Act: It is important that we place 
responsibilities in DOD to support our homeland security needs 
in that portion of DOD that needs to support homeland security. 
The Guard Empowerment Act, which is H.R. 718, would provide 
that mechanism to make our boys that much stronger within DOD 
to accomplish that.
    And finally, joint cargo aircraft. BRAC caused a loss of 
some key tactical airlift capability within the United States 
to the National Guard. The joint cargo aircraft will help 
restore that capability. And it is vital to restoring that 
capability. And it is vital that that program stay on schedule.
    Recently, language that was inserted into H.R. 1518, which 
is the authorization bill from the House, would restrict that 
program until certain conditions are met from the Air Force. I 
would simply ask that that issue be looked at very closely, 
because the schedule for fielding that aircraft is vital.
    Thank you very much for the opportunity to speak this 
morning.
    [The statement of General Lempke follows:]

          Prepared Statement of Major General Roger P. Lempke

    Representative Carney and members of the House Committee on 
Homeland Security Subcommittee on Management, Investigations, and 
Oversight, I am Major General Roger P. Lempke, Adjutant General for 
Nebraska and President of the Adjutants General Association of the 
United States (AGAUS). Thank you for inviting me to testify in my 
capacity as President of the AGAUS representing the Adjutants General 
of the 50 states, three territories, and District of Columbia. As the 
nation enters hurricane season, tornado season, flooding season, and 
fire season the timing is perfect to review the capability of the 
National Guard to support civil authorities in responding to the full 
array of disasters that can bring significant harm to citizens and 
infrastructure.
    The title of this hearing, ``Examining the Impact of Equipment 
Shortages on the National Guard's Readiness for Homeland Security 
Missions,'' appropriately summarizes a situation that concerns all 
Governors and Adjutants General. The National Guard has always been 
under equipped. Prior to 9/11 the equipment situation varied widely. 
Designated units received priority on certain equipment items while 
other units trained on substitute equipment and some units had little 
to no equipment. Overall, the equipment level for the National Guard 
stood in the seventy percent range of designated critical items, but in 
reality many units had barely enough equipment to train with.
    The loss of National Guard equipment to fighting terrorism overseas 
has caused two issues. First, the equipment most valued for disaster 
response has been that most often not returned from overseas--HUMVEES, 
trucks, communications equipment, engineering, and helicopters to name 
a few items. Secondly, equipment shortages have become uniform and 
widespread. No state can claim to be in good shape when assessing its 
equipment situation and each Adjutant General worries that other states 
may not be able to make up for shortfalls within their individual 
states if a large disaster, or series of disasters, occur.
    My quick poll of the Adjutants General prior to this hearing 
revealed most states hovering in the forty to fifty percent of 
equipment required to ``go to war.'' While most Adjutants General 
believe they have sufficient equipment to deal with single disasters 
common to their states, they fear insufficient quantities to deal with 
multiple disasters in their states or having to send equipment to 
support a regional disaster such as Katrina. I would characterize the 
national situation as being ``equipment shallow'' among the states. My 
testimony will expand on what I mean by ``equipment shallow.''
    First, it is important to understand how equipment readiness is 
reported. Units in each state have standard lists of equipment needed 
for their wartime mission. Readiness is reported against these lists. 
The commonly reported equipment fill in the National Guard of fifty 
percent or less measures the readiness of National Guard units to 
accomplish their wartime mission. To my knowledge no similar 
measurement has been developed to uniformly assess the capability of 
National Guard units to support homeland security needs.
    Adjutants General assess three factors with regard to equipment. 
The first is the capability of units to accomplish their wartime 
mission. A system exists for reporting the status of units for 
qualified personnel, training, and equipment to National Guard Bureau 
and ultimately the Army. The second factor is having sufficient 
equipment to train with. Typically, training can be effectively 
accomplished when less than fully equipped, but at some point the 
capability to effectively training diminishes due to equipment 
shortages. Finally, Adjutants General assess the quantity and location 
of equipment to provide disaster response and recovery in their states. 
It is this last factor that has no consistent set of guidelines and is 
often confused with wartime readiness. On one hand every Adjutant 
General responding to my query reported severe shortages in equipment 
on hand for their wartime missions; but on the other hand they 
generally reported sufficient equipment for responding to typical 
disasters in their states, with some exceptions, such as helicopters in 
those states whose aviation units are deployed.
    Let me use a Nebraska example. The Army National Guard in Nebraska 
should have 324 five-ton trucks to equip all our transportation units 
for their wartime missions. Yet, I have only 147. For wartime 
mobilization Nebraska could field only half the units available because 
of this shortage (some of our trucks are old model substitutes which 
could not be sent overseas). But having 147 five-ton trucks positioned 
throughout the state has certainly been sufficient to respond to 
disasters in the state which have included a major tornado which 
destroyed a town about one third the size of Greensburg, Kansas; the 
largest wild fire in about ten years in western Nebraska; a major ice 
storm which knocked out power in central Nebraska and became the most 
costly natural disaster in Nebraska history. I could repeat this same 
story for most equipment on Nebraska equipment lists. If called upon to 
support EMAC requests as we did for Louisiana and Mississippi when 
Hurricane Katrina struck I would have to think longer and harder before 
recommending to my Governor that Nebraska send equipment out of the 
state.
    With an understanding that a system for assessing National Guard 
capability to support homeland disaster response is lacking let me 
provide a summary of the comments received from my fellow Adjutants 
General regarding equipment.
        <bullet> Rotary wing aircraft are at a premium because losses 
        from war and accidents have depleted the CH-47 and UH-60 fleet. 
        Additionally, for the first time a National Guard aviation 
        brigade deployed to Iraq last year which depleted the number 
        available for homeland security needs. The 36th Aviation 
        Brigade will return this fall and time will be needed to 
        restore its aircraft. In the mean time a second National Guard 
        aviation brigade is preparing to deploy.
        <bullet> Engineering equipment was at a premium before the war 
        and much of it that was shipped overseas has stayed there. 
        Earth moving equipment is needed for most major disasters and 
        priority in replacing this equipment is important to restoring 
        our overall capability to meet homeland security needs.
        <bullet> Many Adjutants General pointed to communications, and 
        specifically interoperability, as major concerns. Modern Army 
        communication equipment is often left overseas. When coupled 
        with rapid improvements in local and state communications 
        systems the National Guard is falling behind in its ability to 
        quickly attach to a local area communications grid set up to 
        deal with a disaster.
        <bullet> Chemical detection and protection gear and equipment. 
        This has been a chronic problem for the National Guard. 
        Although many Chemical units exist they are usually chronically 
        under equipped for their critical mission.
    Hopefully, I have adequately explained the problem. What we now 
seek are solutions. Congress has already acknowledged the severe 
equipment shortage facing the National Guard and taken action to direct 
several billon dollars to fix the problem. However, specifying funds 
and actually having them wind up where needed to fix the problem are 
two different things. Funding has been promised before only to be 
diverted once in the hands of the Department of Defense to other 
priorities. First and foremost legislation is needed that will direct 
the Department of Defense to embrace homeland security needs and 
establish mechanisms to ensure these needs are addressed along with its 
mission to fight the nation's wars.
    The National Guard Empowerment Act of 2007 introduced as H.R. 718 
by Representative Tom Davis (R-VA) and Gene Taylor (D-MS) contains 
provisions to specifically deal with National Guard equipping issues. 
Section 7 of this legislation calls for specific reporting by DoD that 
will ensure funds intended for equipping the National Guard actually 
result in equipment arriving at units. It will also provide Congress 
the information needed to assess whether sufficient National Guard 
equipment is available for homeland security needs. It also elevates 
the Chief, National Guard Bureau, to four-star rank and assigns the 
responsibility of chief advisor to the Secretary of Defense on National 
Guard matters, particularly those related to supporting civil 
authorities during domestic emergencies. Other sections of the 
legislation also seek to strengthen the National Guard's ability to 
support homeland security needs.
    The information I have shows that Representatives Carney (D-PA), 
DeFazio (D-OR), Perlmutter (D-CO), and King (R-NY) on this subcommittee 
are co-sponsors of H.R. 718. I would recommend that all members of this 
subcommittee review this legislative initiative and become co-sponsors. 
The equipping problem will take a long time to resolve and legislation 
that will keep the Department of Defense focused on this issue is vital 
to success.
    The next recommendation is to fully fund critical helicopter 
procurement and modernization programs. The UH-60 Blackhawk and CH-47 
are workhorses in Afghanistan and Iraq and essential capabilities for 
responding to disasters in-state and regionally. In total, the National 
Guard is short approximately 130 UH-60 Blackhawk and 30 CH-47 Chinook 
helicopters. The Army plan to restore its helicopter fleet to full 
strength must be given top funding priority. Along with this 
modernization programs that bring National Guard helicopters to the 
latest configurations are also important. Nebraska used borrowed UH-
60's to fight wildfires last fall. These helicopters had engine and 
transmission modifications that Nebraska's deployed helicopters do not 
have. With these modifications the ``loaners'' were able to carry 
larger water loads with faster turnaround times. Finally, the 
procurement of the UH-72 light utility helicopter begins in fiscal year 
08. This aircraft brings a unique combination of versatility and lost 
operating cost that will prove vital to enhancing the National Guard's 
ability to respond to homeland security needs.
    My final recommendation concerns the Joint Cargo Aircraft, or JCA. 
The National Guard's tactical airlift flight of C-130's is smaller now, 
due to BRAC and other reasons, than when Hurricane Katrina hit in 2005. 
The JCA is slatted to fill the gap. The program will field an off-the-
shelf aircraft for the Army and Air Force to meet short haul 
battlefield needs while also serving as a primary asset for moving 
National Guard assets quickly to disasters nationwide. The program 
cannot afford a delay.
    Recent language inserted into the House National Defense 
Authorization Bill for fiscal year 08 would restrict funds for the JCA 
program until certain reports and other actions are accomplished by 
DoD. The Adjutants General certainly appreciate the frustration 
Congress must feel in not being able to review studies and reports that 
address the situation with the nation's airlift fleet. We would only 
ask that the JCA not become the pawn in dealing with this issue.
    If the JCA is not fielded as currently scheduled several negative 
impacts will result. First, the Army National Guard will not be able to 
replace the aging C-23 Sherpa aircraft. Second, the Air National Guard 
will not be able to place the JCA at locations the BRAC legislation 
directed the removal of current mission aircraft and replacement with 
new mission aircraft. Third, the National Guard tactical airlift fleet 
available for disaster support will be diminished in numbers and 
breadth of national coverage.
    On behalf of the Adjutants General I ask the subcommittee to 
consult with colleagues involved with the authorizations process to 
seek way to obtain their information with jeopardizing the JCA 
schedule.
    It has been said that a rising tide raises all boats. So it is with 
National Guard equipment. Funding already identified for National Guard 
must result in the consistent flow of equipment to units of all kinds 
to all states throughout the nation. We need this equipment to be ready 
for the next fight to defeat terrorism for certain. Achieving 
reasonably high equipment levels for the war fight will also ensure 
sufficient equipment is available to support civil authorities 
responding to disasters. Thank you for your interest in this topic 
vital to the safety of Americans.

    Mr. Carney. Thank you for your testimony.
    I now recognize General Bowen to summarize his statements 
for 5 minutes.

 STATEMENT OF MAJOR GENERAL C. MARK BOWEN, ADJUTANT GENERAL OF 
                            ALABAMA

    General Bowen. Thank you, Chairman Carney, Congressmen 
Rogers, Thompson, distinguished members of this committee. I 
want to thank you for the opportunity to speak to you, 
particularly about military support to civilian authorities 
during a disaster.
    While the Army and Air Guard are engaged in combat 
operations around the world, we also respond to the governor's 
call for disasters there in Alabama.
    I am proud to say that Alabama is number one in troops 
deployed to OIF. We have sent over 13,000 soldiers mobilized 
since 9/11.
    My comments today apply only to the Alabama Guard.
    The Army National Guard has never been fully equipped, as 
General Lempke said. Pre-9/11, we generally hovered somewhere 
around the 60 percent range. Well, those states with combat 
units, you know, we do some cross-leveling, and we give them 
additional units and we move from one unit to another to get 
ready to deploy.
    Because of the war in Iraq, we left a lot of equipment over 
there in the first two rotations. So our levels dipped below 50 
percent. And we are still below 50 percent.
    The thing about the equipment, it does improve your impact, 
the speed you respond and how much flexibility you have got to 
respond.
    We do cross-leveling, I will show in this chart later. But 
also, as General Lempke was talking about, the readiness 
reports and the National Guard's federal mission do not 
necessarily apply directly to the readings in each state in 
order to support homeland security.
    And he talked about, if I have my engineering units, my 
M.P. units, my aviation units, my transportation units 
deployed, then I am short personnel and equipment for a 
hurricane.
    We try our best.
    And General Blum at headquarters has been real good in 
making sure that all my M.P.s are not deployed at one time. But 
as I say, some of these units may be more critical for homeland 
security than an EOD unit, for example.
    When the equipment and the capabilities have been depleted 
in the Guard for whatever reason, then the state officials have 
fewer options to what we can do. And we certainly have a myriad 
of potential disasters.
    Well, as Congress, you all have appropriated a significant 
amount of money to deal with equipment shortfalls, but it is 
going to take a long time to catch up. The $22 billion that 
General Blum is talking about will only take us back to where 
we were.
    I would like to mention also that, Mr. Carney, you talked 
about the EMAC agreement. The EMAC agreement has been good. It 
is not broke. Let's don't fix it.
    It does take a little time to fly a UH-60 from 
Pennsylvania, but when we start seeing a hurricane coming, we 
start working our EMAC agreements with our adjacent state right 
quick like. So we will them on ground before they start.
    I also brought--and I gave you a handout here--an answer to 
those questions that you asked.
    Have I alerted my governor about specific equipment 
shortages? Yes, I have. I try to build three task forces. I 
have three task forces because sometimes I sent to Mississippi 
and one to Louisiana. Katrina, I had one in Mobile, one in 
Mississippi, and one in Louisiana. So I am talking about 
equipment to support.
    Just recently, just yesterday and the day before, I got 100 
Humvees for FORCECOM to help support this. Now, this is not 
equipment I can use for training, but I can use it to respond 
to national disasters. So I got those this week.
    Alabama has enough equipment right now to manage up to a 
Cat 4 hurricane, so I am in pretty good shape there. On my 
chart, you will see where I am authorized 699 Humvees. I am 
required 344 for my disaster. I have got 244 on hand but I got 
100 that just came in this week from FORCECOM, and that is the 
first time we have ever done anything like that, so that is a 
big for that.
    Forklifts I am okay on.
    I was short a generator, but in Alabama, we try to use 
other than military generators. The governor has been real good 
about that, and we don't want to get the military the 
generators too much.
    The next question, ``How is your state National Guard going 
to be able to respond to change?'' Well, we haven't change a 
whole lot. We are relatively the same as we were, but it is the 
first year of FORCECOM.
    This equipment alone does not satisfy my requirement for 
training equipments that General Lempke talked about. If I am 
going to war, it takes a lot of time at the mob station if I am 
not training on new equipment, Blue Force Tracker or something 
like that. We need training sets of the kind of equipment that 
we are going to operate on in Iraq, and that is what we really 
need. So we are short equipment. There is no doubt about that.
    For hurricanes, I am okay. As I said, my estimate on the 
general situation, I am good. We accomplished it by 
transferring it from one unit to the other and we are good 
there.
    I noticed one thing they sent in here, General Blum. You 
know, you gave us this joint incident site communications van, 
but you didn't give us anything to pull it with.
    [Laughter.]
    I am going to have something. It will take about a Ford 
350--
    General Blum. Thank you for bringing that up at the 
hearing.
    [Laughter.]
    General Bowen. I thought it would--
    General Blum. You can be assured you are going to get 
something to pull it with pretty quickly.
    General Bowen. All right. Thank you, sir.
    Any questions?
    [The statement of General Bowen follows:]

           Prepared Statement of Major General C. Mark Bowen

    1. Have you alerted your Governor of specific equipment shortages 
that could hinder the ability of the AL ARNG to adequately respond to 
disasters?
        --We have and notified NGB of critical equipment shortages 
        required to support three (3) TF elements. (JTF Alabama, JTF 
        North, JTF South). Specific shortages contained in next slide.
        --Delivery of requested HMMWVs (100) to support critical 
        shortage. 50 each delivered 22 May 07, remaining 50 ea 
        scheduled next week.
        --Alabama has enough equipment to manage up to a CAT 4 
        hurricane without outside assistance.

    2. How has your state National Guard's ability to respond to 
disasters in the state changed over the last year or so?
        --Stayed relatively the same. We had to forecast equipment loan 
        last year just as this year. This is the first year FORSCOM has 
        actually loaned us needed equipment.
        --This equipment loan does not satisfy the shortage of 
        equipment for training units and mobilization of units.
        --Equipment returns from mobilization and in many cases lateral 
        transferred to other units that are mobilizing.
        --We lateral transfer HMMWVs, weapons systems, communications 
        systems, constantly to maintain units at appropriate equipment 
        levels to conduct DSCA support, Training, and Mobilization of 
        units. We are short equipment.

    3. From your best estimate how would you characterize the general 
equipment situation in your state?
        --As stated, AL ARNG can handle equipping up to three (3) DSCA 
        TFs.
        --This equipment level was accomplished by lateral transfer to 
        TF units from other units and loan of critical equipment from 
        FORSCOM during the hurricane season.
        --We are able to support DSCA requirements by loan and cross 
        level; however we are short in training equipment and 
        mobilization equipment.

    4. Describe any specific equipping issues beyond shortages that you 
believe the subcommittee should know about.
        --We were fielded the Joint Incident Site Communications Center 
        (JISC) without a vehicle to pull it. Commercial trailer 
        requiring at least a 350 series heavy duty truck with bumper 
        hitch. Not conducive to military vehicles.

ATTACHMENT:

      Task Force Equipment Required to Support Hurricane Operations
------------------------------------------------------------------------
    Nomenclature          Authorized         Req/ O/H        TAG Short
------------------------------------------------------------------------
          HMMWV                699           344/244            *100
------------------------------------------------------------------------
               Loader, 2.5 Cy    7               7/6               1
------------------------------------------------------------------------
          Fork Lift             15              15/5            **10
------------------------------------------------------------------------
      60 KW Gen                 24               8/5            ***3
------------------------------------------------------------------------
  5K Gal Tanker                 60             20/17               3
------------------------------------------------------------------------

(Req) Required task force equipment to fully equip TF elements for 
hurricane support.
* Loaned to AL ARNG by FORSCOM
** 3 ea scheduled for new delivery by FORSCOM
*** 2 ea scheduled for new delivery by FORSCOM

Supplemental Information:

Major General Creighton Mark Bowen

AG-AL
1720 Congressmen Dickinson Drive
Montgomery, AL 36109

(334) 271-7200

    Mr. Carney. No. Thank you for your statement, General 
Bowen.
    I now recognize General French to summarize his statement 
in 5 minutes. Thank you.

   STATEMENT OF FRENCH, DEPUTY ADJUTANT GENERAL, ARMY, JOINT 
        FORCES HEADQUARTERS, PENNSYLVANIA NATIONAL GUARD

    General French. Chairman Thompson, Chairman Carney, Ranking 
Member Rogers and distinguished members of the subcommittee, 
thank you for allowing me to speak to you today.
    At home, the Guard functions as a modern militia, as we 
already have talked about, under the support of the governor 
for the domestic emergencies. And the National Guard is rightly 
called America's home team.
    I can tell you that our governor, Governor Rendell, takes 
great pride in his role as commander in chief.
    In recent years, our Guard has experienced an unprecedented 
operations tempo like everyone else, performing federal 
missions around the globe.
    Since 9/11, more than 16,000 of our Army and Air Guard 
members have deployed in active federal status to support the 
global war on terror.
    I mention these deployments because of their impacts on 
homeland security responsibilities. Pennsylvania is fortunate 
to have one of the largest National Guard forces in the United 
States, and we have been able to respond effectively to 
domestic emergences, even as we have large numbers that are 
deployed around the world.
    For example, in September of 2005 when we had a brigade 
overseas in Iraq, the 2nd Brigade Combat Team, we deployed 
another brigade to assist with Hurricane Katrina down in 
Louisiana. The response was accomplished through EMAC.
    Even though our Guard has responded effectively in the past 
to various domestic emergencies, I must tell you that our 
senior leadership has concerns about equipment readiness to 
respond to an emergency of extended duration or widespread 
impact.
    For example, in June of 2006, as the chairman mentioned, we 
had a flood in northeastern Pennsylvania. There were over 1,000 
water rescues made by the Pennsylvania Guard.
    Our worry is, what would happen if that were a wider-spread 
emergency throughout the commonwealth and beyond our borders? 
EMAC is a tool to use, but, as has been mentioned earlier, the 
timing becomes an issue as to the availability of equipment.
    The bottom line is that equipment shortages in the Guard 
result in a slower response time than if we were fully 
equipped.
    In terms of equipment, Pennsylvania is again fortunate in 
that the Guard was the only reserve component that was selected 
for the new Stryker Brigade Combat Teams. This means that our 
56th Stryker Brigade is getting the latest equipment. But even 
with that new equipment, our Guard still faces a significant 
equipment shortage in categories of equipment vital to homeland 
security.
    For equipment identified for use in performing these tasks, 
we currently have 44.5 percent of our requirement. What we 
really need is 100 of the equipment authorized.
    Also of concern is the age and the condition of the 
equipment. As an example, our deuce and a halves and five-ton 
trucks are 35 to 40 years old--well-maintained, but they are 
old.
    Let me make one point clear, though. When we send our 
soldiers and our airmen to deploy in combat, they are always 
prepared, with the best equipment and the best training.
    They are the best Guard airmen and soldiers that we have 
ever had in the Pennsylvania Guard. However, it would be far 
better for our units if they had the same equipment at home, 
not just to enhance the training but also to increase readiness 
for emergency preparedness--the same equipment at home as they 
would have when they would deploy.
    We don't just need to respond effectively in domestic 
emergencies. We need, also, to have facilities from which to 
mount that response. The ability to respond effectively is 
always one that is joint. And it often involves nongovernment 
and nonmilitary agencies as well.
    Governor Rendell, with outstanding support from our 
congressional delegation, has advanced the plan so that Willow 
Grove Naval Air Station will become a model in joint 
interagency basing.
    This will provide a regional strategic response capability 
in the Northeast region.
    We don't know what kind of emergencies or what kind of 
contingencies may arise in the future. We do know that the 
current lack of equipment degrades our ability in certain 
catastrophic scenarios.
    As we have in the past, the Guard stands ready to perform 
both its warfighting and homeland security missions. We need 
the same commitment to equipping our units for homeland 
security that we have to sending our units to war.
    Thank you.
    [The statement of General French follows:]

          Prepared Statement of Major General Robert P. French

    Chairman Thompson, Chairman Carney, ranking member Rogers and 
distinguished members of the subcommittee, thank you for the 
opportunity to speak to you today about the impacts of equipment 
shortages on the National Guard's readiness to respond to homeland 
security missions. I am appearing on behalf of Pennsylvania's Adjutant 
General, Major General Jessica L. Wright, who regrets that she was 
unable to be here today. General Wright asked me to convey her thanks 
to you and the subcommittee for undertaking this inquiry into this 
important subject. General Blum has given you a national perspective on 
these issues, and I will focus on the impacts on the Commonwealth of 
Pennsylvania and the Pennsylvania Army and Air National Guard.
    The National Guard is the only military force shared by the states 
and the federal government. The soldiers and airmen of Pennsylvania 
Army and Air National Guard perform vital missions abroad as members of 
reserve components of the Army and the Air Force. At home, the Guard 
functions as the modern militia responding to the Governor in times of 
domestic emergencies. Except when performing active federal service 
under the direction of the President, the Guard remains a state 
military force under the command and control of the Governor. The 
National Guard is rightly called America's home team, and I can tell 
you that our Governor, Ed Rendell, takes great pride in his role as 
commander-in-chief of the Pennsylvania National Guard when it is not in 
active federal service.
    In recent years, the Pennsylvania National Guard has experienced an 
unprecedented operations tempo performing active federal service in 
Iraq, Afghanistan, Bosnia Kosovo, and elsewhere around the globe. Since 
September 11, 2001, we estimate that more than 16,000 of the over 
19,000 men and women who serve in the Pennsylvania National Guard have 
been deployed in an active federal status in support of the Global War 
on Terrorism. The duration and location of these deployments have 
varied, but we have had major combat units deployed to Iraq and 
Afghanistan for tours of up to 12 months on the ground plus six months 
training in mobilized status. In September 2005, we had more than 6,000 
Pennsylvania National Guard soldiers and airmen on active duty under 
Titles 10 and 32, United States Code. Today, the number of mobilized 
and deployed soldiers and airmen is smaller, with about 650 in an 
active federal service status. These numbers are expected to grow in 
the future. I mention these deployments because of their potential 
impacts on homeland security responsibilities.
    Pennsylvania is fortunate to have one of the largest National Guard 
forces in the United States, and we have been able to respond 
effectively to domestic emergencies even as large numbers of our 
personnel and their equipment have been deployed overseas. For example, 
in September 2005, at a time when over 2,000 soldiers from our 2nd 
Brigade Combat Team were deployed to Al-Anbar province in Iraq, we were 
about to deploy nearly 2,500 soldiers and airmen to Louisiana in 
response to the Hurricane Katrina disaster. I believe Pennsylvania 
deployed the largest Guard force to the Gulf Coast of any state except 
for those in the direct path of the storm's devastation. This response 
was accomplished under the auspices of the Emergency Management 
Assistance Compact (EMAC), which has proven an effective tool for the 
states to work together to respond to domestic emergencies, with 
coordination from the National Guard Bureau.
    Even though I believe the Pennsylvania National Guard has responded 
effectively in the past to various homeland security and domestic 
emergency contingencies, I must tell you that the senior leadership of 
the Pennsylvania National Guard has concerns about our equipment 
readiness to respond to an emergency or homeland security contingency 
of extended duration or widespread impact. For example, in June 2006, 
the Pennsylvania National Guard responded magnificently to the flooding 
in Northeast Pennsylvania. Our Army National Guard helicopters 
participated in nearly 1,000 water rescues, and who can forget the 
photographs of people being lifted up from the roofs of their homes or 
from vehicles stranded in the on-rushing waters of the floods. Our 
worry is what would happen if an even more widespread emergency arose 
at a time when the Army National Guard's helicopters were deployed 
overseas.
    The same aircrews that rescued Pennsylvanians from the floods were 
earlier deployed to Afghanistan. Aircraft that these aircrews flew in 
Afghanistan were left in country and replaced with other airframes. 
What if our Governor and our Commonwealth lacked the military assets to 
respond? Even though the Emergency Management Assistance Compact means 
that assets from our neighboring states could be made available, it's 
unlikely they could be on scene as quickly. Interstate movement of 
personnel and equipment in response to an EMAC scenario will rarely, if 
ever, result in as prompt a response as use of in-state assets. The 
bottom line is that equipment shortages in the Guard result in slower 
response time than if the Guard were fully equipped. These concerns are 
shared by many states.
    In terms of equipment, Pennsylvania again is fortunate in that the 
Pennsylvania Army National Guard was the only state National Guard 
force--and indeed the only reserve component force in America--selected 
for fielding of the new Stryker Brigade Combat Team. This means that, 
as part of its transformation, our 56th Stryker Brigade Combat Team is 
getting the latest equipment. Even so, our Army National Guard faces 
significant equipment shortages in categories of equipment that might 
be vital in response to homeland security and domestic emergency 
scenarios.
    Pennsylvania has only about 50% of its authorized numbers of truck 
tractors and flatbed trailers. We have only about 45% of our authorized 
number of Bradley Fighting Vehicles. Our soldiers have only 32% of 
night vision equipment and 69% of small arms and crew-served weapons on 
hand. We have only 48% of the authorized number of fuel tankers for our 
force.
    For equipment identified for use in performing homeland security 
and disaster relief, the Pennsylvania Army National Guard is currently 
equipped at 44.5% of its requirement for aviation, chemical, engineer, 
logistical, maintenance, transportation, medical, signal and security 
equipment. Of the equipment identified by line item number for homeland 
security/emergency response needs, 48.8% are considered critical dual 
use equipment items. Our goal is to fill 100% of the 342 critical dual 
use items as ?key enablers.?
    Also of concern is the age and condition of our equipment. It is a 
common occurrence for the driver of a National Guard truck or the pilot 
of a National Guard aircraft to be younger--sometimes significantly 
younger--than the equipment he or she is operating. Nearly all our 2.5-
ton (deuce and a half) and five-ton trucks are 35 to 40 years old. Our 
heavier trucks average 20 to 25 years of age.
    Let me make one point clear, when our soldiers and airmen deploy to 
combat, they are provided the best-available up-to-date equipment. 
Superbly trained and equipped, our deployed Guard soldiers and airmen 
are ready for battle. However, it would be far better if our units had 
that same equipment at home, not just to enhance training, but also to 
increase readiness for the homeland security and emergency preparedness 
missions.
    We don't just need equipment to respond effectively in domestic 
emergencies; we need the facilities from which to mount our response. 
The ability to respond effectively to homeland security and emergency 
scenarios is almost always one that requires a joint response involving 
both military and non-military government organizations. Governor Ed 
Rendell, with outstanding support from our Congressional delegation, 
has advanced a plan so that Willow Grove Naval Air Station Joint 
Reserve Base can function as a joint interagency base and homeland 
security hub after the Navy leaves the installation. While Navy and 
Marine units will leave Willow Grove as a result of BRAC, Pennsylvania 
Air and Army National Guard units, along with the Army Reserve, plan to 
operate there well into the future. Flight operations are an absolutely 
essential element of any disaster relief effort facilitating rapid 
response and recovery in emergency situations. The joint interagency 
base approach will provide for an installation in a key strategic 
location with DoD-level security for units and agencies that can 
respond to a wide variety of scenarios. This represents an innovative 
approach to provide homeland security response capabilities, and we 
believe Willow Grove will become a model homeland security 
installation.
    Permit me also to mention an Air Guard equipment issue of 
importance. The 193rd Special Operations Wing is converting to eight 
new EC-130J aircraft replacing older EC-130Es. The DoD had planned to 
outfit six of the new aircraft with special mission equipment to 
conduct the unit's one-of-a-kind ``Commando Solo'' mission--airborne 
broadcast of multimedia programs in support of information operations. 
The 193rd is the only organization in the DoD that conducts this 
important tasking. Its C-130s could play a major role in disaster 
response scenarios. To date, only three of the required six aircraft 
have been modified to perform the mission, and we have learned that DoD 
does not plan to fund Commando Solo equipment for the final three 
aircraft.
    General Blum has told you about Department of Defense action to 
address the equipment needs in the National Guard, and this is 
certainly a positive development. As long as the Guard is competing 
with the active forces for available funds and equipment, and as long 
as homeland security and emergency preparedness are viewed as secondary 
concerns, the Guard will have difficulties in obtaining the numbers, 
quality and types of equipment we need to best respond to emergencies. 
We don't know what kind of contingencies or emergencies may develop in 
the future. We do know that the current lack of equipment on hand could 
degrade our ability to respond in certain catastrophic scenarios. We 
also do know that the National Response Plan and state emergency 
response scenarios give the National Guard an important role to play in 
addressing various emergency support functions.
    As we have in the past, the Pennsylvania National Guard stands 
ready to perform both its war-fighting and homeland security missions. 
We need the same commitment to equipping our units for homeland 
security and emergency response missions that we have when we send our 
units on war-fighting missions overseas.
    Thank you again for looking into this very significant issue.

    Mr. Carney. Thank you, General.
    The chair would also like to recognize the letter of 
support that the committee received from the National Guard 
Association of the United States in support of this hearing 
today.
    I would like to ask unanimous consent to enter it in the 
record.
    Hearing no objections, so ordered.
    I would like to thank all the witnesses for their 
testimony.
    And I will remind each member that he or she will now have 
5 minutes to question the panel.
    I will go out of order and recognize the ranking member, 
Mr. Rogers from Alabama, for 5 minutes.
    Mr. Rogers. I thank the chairman for that.
    I want to start with General Lempke. You made reference to 
the Guard Empowerment Act. Tell me more about it and why you 
find it critical.
    General Lempke. A major issue that it addresses is a voice 
for homeland security within DOD. And within that, it does a 
number of things. Number one, it would elevate the chief of the 
National Guard Bureau to a four-star level and be the primary 
adviser to the secretary of defense on homeland security 
matters.
    And when you take a look at the Air Force charter and the 
Army charter, neither of those have homeland responsibilities 
in those charters, but yet the National Guard reports to both, 
and we do.
    There needs to be a voice, a joint voice within DOD, to 
represent these concerns, so when you start talking dual-use 
equipment and other special-use equipment, that voice gets 
heard at the DOD level.
    It also offers provisions in there for reporting equipment 
needs, for reporting the status of the states through DOD to 
Congress. So it has a number of features in it that go directly 
to the readiness of the National Guard in the individual states 
to perform their state mission.
    That is why that legislation is so critical right now.
    Mr. Rogers. Thank you.
    General Bowen, you made reference to cross-leveling. What 
is that?
    General Bowen. That is whenever I have a--and I deal with 
people and with equipment. Let's say a unit is only filled to 
50 percent of the Humvees. When they go to war, I have got to 
pull 50 from some other units to put them in that unit so when 
they go to war, they have got everything they are supposed to 
have.
    And that is what we have been doing now for about 4 years, 
is moving equipment from one unit to another unit for 
deployment.
    And then I do the same thing for hurricanes. These three 
task forces I have got, I have to shuffle equipment around so 
they have everything they are supposed to have.
    Mr. Rogers. Okay.
    And General French, you made reference to being at 44 
percent of your authorized equipment. And this, I guess, is not 
only you, but for any member of the panel, were any of you at 
100 percent of your equipment needs prior to 9/11?
    General French. Sir, in our case, prior to 9/11, we were 
about at 68 percent of our authorized equipment. So we have 
never been at 100 percent for my knowledge ever.
    Mr. Rogers. Is there any other--
    Yes, sir?
    General Lempke. We had some priority units prior to 9/11 
that were very close to 100 percent, because they were a high-
priority unit. But otherwise, no.
    Mr. Rogers. General Bowen, you talked about, you are 
roughly at 66 percent now. How long would it take you to get to 
100 percent if the funding level that we are talking about for 
next year continued?
    General Bowen. Well, Congressman, that is a little bit 
above my level, because I am not sure what the production 
capacity of our industry is. Because, you know, we have been 
producing up-armored Humvees. That is one of the items I am 
short, and I don't have any of them.
    But, you know, we really haven't been--and it is a knock on 
the country--we haven't been on a war-fight mentality, 
manufacturing-wise or anything else.
    So this is echelons above me. But you have got to get the 
manufacturing lines going again before you can produce all 
these things, even if you had the money to pay for it.
    Mr. Rogers. Well, again, I guess I am trying to get a feel 
from any of you how long you think it would take.
    General Blum?
    General Blum. I am rather confident that provided the 
additional resources that would be required, you could 
accomplish this in the next 5 years. And you could do it sooner 
if enough resources were applied.
    So it is a matter of money against time. This equipment is 
readily available. The industrial base can produce it. If the 
resources are there, this country can produce the type of 
equipment that we are talking about in pretty short order.
    So I would say you could do it as quickly as 2 to 3 years 
if enough money were put there. And you could take it as long 
as you want to take, if--it depends on how much resources are 
applied to the problem.
    Mr. Rogers. And General Bowen, you might be familiar with 
the article that was in the Tuscaloosa News April 23rd. It 
talked about Guard equipment in Alabama.
    And the gist of the article, as I understand it, was that 
you were training on different equipment than your troops were 
having to use in-theater. Could you expand on that problem in 
your state?
    General Bowen. Yes, sir. Whenever we deploy, the Army gives 
us the latest equipment that is out there. An example would be, 
I mentioned Blue Force Tracker, for example, which is a system 
where you go, you can monitor where you are, where your buddies 
are, combat reports and all of that, but we really don't have 
many of those in Alabama.
    If it is a Jeep--any kind of new equipment, whether it is a 
radio gear or what, if you don't have it at home to train with, 
then it takes additional time when you get to the mob station 
to train on that--it is called NET training, new equipment 
training. And that is where we are.
    If we had it at home, just training sets, it would shorten 
the mob time at the mob station.
    General Blum. It would also improve our ability to respond 
domestically. What General Bowen is talking about is a system 
that allows us to know where every vehicle and where critical 
nodes of logistics are and where our personnel are.
    Consider having that level of knowledge, that level of 
knowing and seeing where your assets are, in transit, and which 
ones are there in a disaster response. It really makes the 
response more effective, more timely.
    It keeps us from sending things that are not necessary to 
places where they are already being addressed. And it lets us 
clearly know where we are not able to get the water and food 
and shelter materials and the medical materials to the people 
in need because we think they are there, but we don't have a 
way to positively know they are there.
    This Blue Force Tracking is very much what a cutting-edge 
industry uses today, such as FedEx and UPS, to know where their 
in-transit critical items are. We need the same thing when we 
respond here in the homeland.
    Mr. Rogers. Right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carney. I thank the gentleman from Alabama.
    I will now recognize myself for 5 minutes.
    General French, you know, I am a Pennsylvania guy, too, and 
I was impacted by the floods last June, pretty heavily, up in 
Susquehanna County where I am from.
    And actually they occurred on my anniversary, and my wife 
still hasn't forgiven me for having her and the kids drive 
through floods. So, anyway, I am very interested in your 
responses here.
    Was your ability to respond to those floods, and, in fact, 
the snowstorms, impacted by equipment shortages that we have 
heard about?
    General French. Sir, because of the fact that it was a 
regional type of emergency, rather than a state-wide emergency, 
we were able to marshal the resources we needed to put 1,000 
people out on the street in very short order.
    And the responses that were made, equipment-wise, in 
Pennsylvania, we have got our three brigade combat teams that 
are dispersed throughout the commonwealth. And so that, of 
course, allows us to have equipment on-station to meet those 
regional needs.
    It is the broader scope that concerns us.
    Mr. Carney. Understood. Thank you.
    You did a fine job up there, by the way. I have to commend 
you. They were on the ground quickly.
    My little village actually was surrounded. We couldn't 
leave, once I got in.
    General Lempke, in your prepared statement, you state that, 
``Specifying funds and actually having them wind up where 
needed to fix the problem are two different things.''
    You go on to say that the promised funding had been 
diverted by the Department of Defense. Can you elaborate on 
that point and provide us with some examples on what has 
happened and how it has impacted your readiness?
    General Lempke. The most recent example I can provide it 
what is going on right now with military construction. 
Currently, everybody realizes that there is an overrun 
condition encountered with BRAC. And so, we are seeing 
important projects that we had identified, the adjutant 
generals had identified, for the states--and these projects are 
important because the geographic factor was mentioned before--
those projects being delayed and deferred because of this 
funding going elsewhere to support BRAC. That is one example.
    In the past, when we have had equipment identified that was 
supposed to come down to the Guard, other priorities would be 
set up and it would go elsewhere.
    Now, admittedly, more recently, some of that has been 
directly overseas to the war. No arguments about those 
conditions.
    But as the situation changes and everybody realizes that 
the Guard must rebuild, we must assure that that equipment does 
flow through and reach the National Guard.
    The Guard Empowerment Act, again, has provisions for 
reporting those kinds of numbers, so that you, Congress, can 
see that your intentions are met--when you allocate money for 
the Guard, it actually shows up in equipment for the Guard.
    Mr. Carney. Thank you.
    General French, another question: In your prepared 
testimony, you state that, ``As long as homeland security and 
emergency preparedness are viewed as secondary concerns, the 
Guard will have difficulty in obtaining the numbers, quality 
and types of equipment we need to best respond to 
emergencies.''
    Could you elaborate on this, please? Where and by who is 
homeland security and emergency preparedness viewed as 
secondary concern?
    General French. What I meant by that is that all of our 
equipping is based upon our warfight, on our TO&E units. And 
so, thereby, we develop the needs based off our our go-to-war 
mission.
    We have always said that when we are ready to go to war, we 
are also ready to take care of our communities. And so, because 
our soldiers are well trained, the equipment that we need to do 
the wartime mission in many ways lends itself to homeland 
security.
    So, as has been mentioned a bit earlier, what happens today 
because of the war effort is equipment is going to the right 
place. We want to make sure our soldiers and airmen have the 
best equipment, so that when they go into battle, they are 
ready, fully trained and fully equipped.
    What that does is, by shifting the resources, it leaves us 
with either substitute items at home or no equipment at home.
    Mr. Carney. Was there somebody in Homeland Security that 
you know about that says this is a secondary concern?
    General French. No, sir, there is not.
    Mr. Carney. Okay, thank you.
    General Lempke. Congressman, could I chime in on that one?
    Mr. Carney. Absolutely.
    General Lempke. I am not going to put words in his mouth, 
but the issue here goes back to mission. When we take a look at 
our requirements on the DOD side and what our needs are in the 
state, again, it is the federal mission that is looked at by 
the Army and the Air Force, as it should be and as they were 
chartered to do.
    It is up to us, then, to try to match that up with what our 
real needs are. One initiative in that area has been the 
critical 10 that General Blum and the National Guard Bureau 
have generated, trying to get 10 critical capabilities into 
each state.
    That is a National Guard initiative. That has not been a 
DOD initiative.
    So we need more attention at the DOD level on these state 
needs, if you will.
    Mr. Carney. Thank you, General.
    General Blum, quickly, can you put the current situation in 
a historical perspective? How do you compare the shortages we 
have heard about today with, say, 40 years ago?
    General Blum. Well, for the last 40 years, the National 
Guard has been underequipped, and it is underequipped today. 
The difference is, the National Guard is no longer a strategic 
reserve that will be used only in the late innings of World War 
III.
    What we are talking about is an operational force that is 
used every single day. Today, while we are talking at this 
hearing, 20 governors have their National Guard called out.
    Eleven thousand citizen-soldiers from all over our country 
are doing the kind of things you saw in your district when the 
floods occurred. Some of them are fighting fires, some are 
fighting floods, some are dealing with other natural disasters, 
guarding critical infrastructure around this country at the 
command and control of their governors.
    Last Saturday, when we had the Joint Chiefs of Staff 
exercise and the National Guard exercise in Indiana, testing 
our response to a nuclear detonation, if, God forbid, that were 
ever to occur, we had 25 governors--one-half of our state 
governors had their Guard called out. It had no relation to 
their exercise, a real world response in their states.
    For them to feel comfortable to respond, they have to have 
more than one-half of the equipment that is required to be in 
those units.
    Now, who sets the requirement? The requirement is set by 
the Army and the Air Force and the Department of Defense.
    So it is their requirement. It is not the National Guard's 
requirement. And we are only equipping that force to meet one-
half of that requirement. In a post-9/11 world, we have to 
seriously evaluate whether that is enough.
    You were talking about a flood. We can handle a flood, even 
a regional flood, if it comes at us one at a time, if we have 
one disaster at a time.
    Take what you are describing and have it come coincidental 
with a hurricane or two and perhaps an earthquake or a tornado 
and also fires in the Midwest and mudslides in the western 
coast that occur all the time, and then suppose either a 
domestic or a foreign terrorist should attack our nation, 
something to the scope of what we were practicing for last 
week.
    If those things happen, either near or simultaneously, we 
would be overwhelmed and 50 percent would be far less than what 
would be required. We would need 100 percent of what we were 
supposed to have and probably then some. And that would 
probably perhaps fall short.
    But in a post-9/11 world, I think we need to seriously 
reevaluate whether the way we resource, the strategy, the way 
we supply and equip the National Guard to do what we expect it 
to do today, which is different than what we expected it to do 
40 years ago--we now are doing far more things than we were 
ever expected to do.
    If I could call up chart 5 on your flat screens, I will 
show you exactly what we are doing right now. We are doing 
every single mission that we could possibly be doing, and we 
are doing it simultaneously.
    And yet we are trying to do this with only 50 percent of 
the equipment back here in the United States to ensure that 
everybody overseas that is working on the right side of that 
chart you are looking at, that are federalized and overseas and 
working for the Department of Defense and the combatant 
commanders, have every single thing that they need to do their 
mission.
    We need to make sure that the troops that are back here 
have everything they need to do, that if they get called, no 
notice, today, to respond, they are able to respond.
    I will tell you that if Omaha, Nebraska, needs to be 
evacuated, General Lempke will change his earlier testimony 
that 150-some trucks are enough. He is going to want all 300 
that he is authorized, because, if he only tries to do an 
evacuation with 150 trucks, it is going to take him at least 
twice as long, which means some people are not going to get 
evacuated, which means lives are going to be lost.
    And those lives are going to be American lives.
    This nation can afford to equip, this Congress can 
authorize and appropriate enough money to make sure that we 
have the tools we need to do the job we have been asked to do 
and the American people expect us to perform.
    Mr. Carney. Thank you, General.
    The chair now recognizes the gentleman from Mississippi, 
the chairman of the full committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    And I appreciate the service of our witnesses to our 
country.
    General Blum, for the record, a lot of us have gone on 
record in support of your position being a full general 
position, and that four star is absolutely important. It speaks 
volumes for your position but it also signifies the fact that 
that mission has changed substantially from what it used to be, 
and so, therefore, there should be additional recognition 
because of it.
    The other thing, I think, what I am hearing, both from the 
witnesses and the little sidebars going on, is we recognize the 
good job that is being done in spite of the difficulty.
    But I think what we need to do is get as much on the 
record, to say that if our men and women in the Guard had more 
equipment available to them for domestic response, that 
response time could be shortened and potentially lives could be 
saved.
    So I will give another opportunity, General, for you to go 
on the record and reflect on that.
    General Blum. Sir, that is absolutely fact. If we had more 
equipment, we could respond more effectively, more quickly, and 
hence, more lives could be saved. That is an absolute fact.
    And every time that we?if we have a predictable event, we 
can take measures to mitigate that and to buy time, so to 
speak, by repositioning equipment. But many of the things that 
go bad in our country are unannounced.
    Tornadoes give you very little warning. Earthquakes give 
you even less warning. Flash floods, no warning. Winter storms 
often take tracks and cripple and paralyze areas of our nation 
with very little or no warning.
    It doesn't allow you--a hurricane is the easiest natural 
disaster to deal with because we usually get at least some 
predictability of some track the hurricane is going to take. 
And we have a few days to get ready and that time is precious.
    When you have a few minutes or hours to get ready and 
respond, you must have the equipment you need in your hand. You 
cannot go looking for it and you can't--again, as you said, 24 
hours is a quick response time, but not if you are standing in 
water that is coming up over your head. That is a long time to 
tread water.
    So we have got to have the essential tools we need, and we 
are trying to be reasonable with this as much as we possibly 
can. We are conceding we do not need all of the tanks and 
armored personnel carriers and lethal systems--artillery and 
mortars and those type of weapons systems.
    We need enough to train with to be ready when we are called 
for our federal mission, but we must have the equipment we need 
to be able to respond to the American people here at home, and 
that is generally engineer equipment, metal equipment, 
communications equipment, general purpose aviation like 
helicopters and transport aircraft, trucks.
    Let me just talk about the trucks for a minute. We have 
talked about trucks and we have talked about 40-year-old 
trucks, and we have kind of glossed over something very 
important. Those 40-year-old trucks are here in the United 
States because they are not good enough to go to war. They are 
here in the United States in the hands of the National Guard 
because they are not good enough to give or sell to our allies.
    But someone thinks they are good enough to be used to save 
American lives in an emergency. Nobody on this committee is 
riding around in a 40-year-old vehicle. There is a reason for 
it. It doesn't make economic sense. They are too unreliable. 
They are too expensive to maintain and repair. And every minute 
we waste training on how to maintain a 40-year-old truck, we 
could be using that time and energy to learn how to maintain 
modern equipment that we are going to have to operate in time 
of crisis overseas and should have in our hands right here at 
home now, today.
    And I don't think there is any disagreement on this 
committee with that position.
    I guess the other response to your comment, General, is 
that have you prepared a minimum readiness equipment list that 
you need to get back up to in order to feel comfortable with 
having the ability to respond to any disaster here at home?
    General Blum. Yes, Mr. Chairman, we have.
    It is 342 clearly identified items of equipment that are 
absolutely essential to be in the hands of soldiers and airmen 
in the Army and Air National Guard when they are called upon to 
respond here at home.
    And it falls into 10 major categories, called the essential 
10. And if I could have chart six come up on the flat screen, 
you would see what those big categories are.
    And you can see that those are the essential things for 
maintenance, aviation, engineer, medical, communications, 
transportation, security and logistics and power generation. It 
is exactly those things that the Department of Homeland 
Security and the governors expect the Department of Defense to 
provide: defense support to civil authorities, military support 
to civil authorities when our local and state and federal 
civilian responders are overwhelmed.
    Mr. Thompson. Last question, General. To what extent have 
you put a percent readiness on these items as to where we are? 
Or can you get back to us--
    General Blum. Can I show chart one to the chairman, please?
    Mr. Thompson. Please tell them we hadn't rehearsed this in 
terms of the charts and all of that.
    [Laughter.]
    You just come prepared.
    General Blum. Well, no, actually, I happen to be, 
fortunately, prepared because there are other people that are 
concerned about this as well. And I have come from another 
place, this morning, that is very concerned about this.
    Mr. Thompson. Good.
    General Blum. This happens to be, in, basically, Louisiana, 
because we are very concerned that Louisiana has what it will 
need, as well as Mississippi and the other hurricane states.
    There are about 20 states that we have these charts on 
right now, that tell--so that, if they were hit with a 
hurricane, you know, down the left hand side, you can see on 
the chart, there are the 11 essential functions that we just 
talked about.
    And then across the top of the chart, we are tracking if it 
is a Cat 1 hurricane, a Category 2 hurricane, all the way up to 
a Category 5 killer hurricane--what would be able to be 
provided and who would have to provide it?
    And you can see that we show that, in a Category 1 
hurricane, Louisiana National Guard has what it needs to do the 
job. But as soon as it reaches a Category 3, it doesn't, and 
they have to rely on Emergency Management Assistance Compact 
assistance from the National Guard.
    And then you can track onto the right side of the chart and 
see exactly who the states are that already have agreed they 
were going to send what specific capabilities, whether it is 
aviation engineers, trucks, or whatever is needed, to 
Louisiana.
    What I am illustrating is, we are doing the very best job 
we possibly can to do the finest job we can with the 53 percent 
of the equipment we have.
    If we had more equipment, a lot less of this would have to 
go on. And states could be much more self-sufficient.
    And let me say another thing. We are the strategic reserve 
of this nation, even today.
    And for our adversaries overseas to see a strategic 
reserve, the only strategic reserve that this nation has, with 
an all-volunteer force, so there is no draft, the only place we 
are going to get trained and equipped soldiers is going to be 
out of the National Guard, in the combat formations. And to 
have them equipped at 50 percent sends a signal that could be 
miscalculated by our adversaries overseas.
    And what it would cost to respond if they miscalculate 
would be far greater in 3 months--what we would have to spend 
for that miscalculation would pay to prevent the miscalculation 
and provide the increased response here at home.
    Mr. Thompson. Thank you very much.
    I appreciate your indulgence, Mr. Chair.
    Mr. Carney. I thank the gentleman from Mississippi. And 
thank you for your leadership on this committee, sir. It is 
inspirational, frankly.
    I now recognize my good friend from Colorado, Mr. 
Perlmutter, for 5 minutes.
    Mr. Perlmutter. Thank you, Mr. Chair.
    And, General Blum, and I appreciate your comments. I have 
taken some time to read through the Commission on the National 
Guard and Reserves. And then, looking at your charts today, 
coupled with the fact that, you know, we have reduced our 
general forces, both active and reserve--and I am especially 
struck by that first chart you had us look at, your chart 
number five, with all of the different functions and 
responsibilities of the National Guard, just here.
    And remember, we are the Homeland Security Committee, and 
that is really where my bias is, my concern is. And my belief 
in terms of the mission of the National Guard was to protect 
our country here and to respond to disaster, natural and 
manmade.
    And we have been talking about equipment, quite frankly, 
but my concern goes to the men and women who are serving us. 
And all of you gentlemen, obviously, and everybody in the 
National Guard, they are going to fulfill their mission to the 
best of their ability, come hell or high water, no question 
about that.
    But my concern is--and this was something you said, General 
French. You were concerned, I think your language was about 
the--it was a question Mr. Carney asked you, and you said, 
well, we handled--``It was a regional matter. But the broader 
scope, that concerns us.''
    A category 5 hurricane, hundreds of thousands of acres of 
wildfires in Colorado, you know, some kind of a tornado, you 
know, a major system going through Nebraska.
    I am concerned that we are just stretched to the breaking 
point, equipment and manpower. I mean, can you react to that?
    General French. Well, sir, simply put--and General Blum had 
stated it a little bit earlier in a different way--the fact is 
that when you have just 50 percent of your equipment and you 
have a very well-trained force, you still can only respond with 
50 percent of your capability.
    And so, in a regional circumstance that we spoke about 
earlier, that we had about 1,000 water rescues by magnificently 
trained Guardsmen, Army and Air, but if that were a broader 
scope and you needed more vehicles, more helicopters in order 
to provide that same capability for the citizens of the 
commonwealth or the nation, we just simply reach a point of no 
return, we can't do that.
    And so, that is the criticality in terms, in my view, of 
the 50 percent of the fill of equipment.
    Mr. Perlmutter. Let me take it a step further, if I could--
and General Blum, you may want to chime in here.
    I am looking at the different responsibilities. And you 
say, really, since 9/11, the responsibilities of the Guard have 
changed pretty dramatically from a strategic reserve when you 
had maybe 150,000 more people and you were just the very last 
backstop, to, now, an operational, almost a standing unit.
    And you are taking care of law enforcement, local and state 
crisis management, consequence management--which I guess is 
probably the aftereffects, counternarcoterrorism, national 
security special events, airport security, critical 
infrastructure protection, border security--which we haven't 
even talked about, physical or cyber attack on the homeland.
    How, with all of those responsibilities--and, again, this 
comes to the tension of this dual hat, this dual purpose that 
you serve, protecting here at home and helping in the event of 
natural and national disasters, and yet having to be in the 
theater in Iraq, in Afghanistan, in the Horn of Africa, in 
Bosnia, in Kosovo and who knows where else--how can you do all 
that?
    General Blum. The good news is, Congressman, we can do it 
magnificently well. And we could even do it better if we had 
all the tools we needed to do it. We have the people. If I show 
you chart three, you can take a look at your state and you can 
see that--that is the pie chart. There you go?you can see that 
Colorado has most of its National Guard back in Colorado, Army 
and Air.
    Now, let me show you--
    Mr. Perlmutter. But they are going out for their third time 
in the fall.
    General Blum. Absolutely. But they are magnificently 
committed people that are willing to do this. What they resent 
is when they come home, that they don't have the equipment that 
they are used to seeing in-theater and that they are 
underresourced worse than they were when they left. And it has 
an effect on morale, it has an effect on training, it will 
ultimately have an effect on our retention ability, in other 
words, the ability to keep our trained and experienced people. 
And is also has a, no kidding, effect on our ability to 
respond.
    Now, I have talked to you about many, many novel ways and 
very creative ways that we are mitigating the effects of that. 
And we will continue to work to do that.
    And we are working with our active duty counterparts and at 
DOD to improve the situation.
    But the easiest thing to fix is what is broken in the Guard 
right now, and that is the equipment level. The easiest thing 
to fix is buying equipment. We know what the equipment is, we 
know where it is made, right here in this country, we know what 
it is, and we know how much we need, and we know how much it 
costs.
    So it is really, now, the job of the Congress, really, to 
decide whether they want to appropriate and authorize that 
equipment or accept this level of risk.
    The level of risk you are accepting is slide nine. This is 
what the nation looks like. It is a big red country. Slide 
nine, please, the red--that is it. That is the nation.
    And if you want more detail of that, we will go to slide 
10, and then you can look and find your own state, and find out 
exactly where it stands and what exactly is the situation of 
equipment in your state.
    And there is nobody on there that is to an acceptable 
level. The highest state on there is 63 percent. And the lowest 
is 33 percent.
    And within those percents are some of these trucks that I 
am talking about that are so old and so unreliable and so 
unmodern that we won't take them to war or sell them or give 
them to our friends. But we leave them in the Guard and say, 
``They are good enough.'' And I say they are not good enough.
    Mr. Perlmutter. Okay. Thank you.
    Mr. Chairman, I have, like, 900 more questions. But I will 
save those, if you will let us do another round.
    Mr. Carney. We will certainly do another round. I thank the 
gentleman from Colorado.
    Chair now recognizes Ms. Clarke from New York for 5 minutes 
or so.
    Ms. Clarke. Thank you very much, Mr. Chair.
    And I want to thank Lieutenant General Blum, Major General 
Lempke, Major General Bowen and Major General French for coming 
before us today.
    I want to thank you for your service to our nation and let 
you know that we are deeply appreciative of your commitment to 
our community.
    For some time, this committee has been investigating 
problems facing the National Guard as it adapts to its new 
types of missions, its scope of service, if you will, or for 
lack of a better term, that continues to evolve with the 
complexities of our society providing for the national defense.
    Through underfunding and overuse, the National Guard has 
found itself in a position where a series of disasters in the 
wrong places at the wrong time could have and could force some 
very difficult decisions.
    Our National Guard is composed of many outstanding women 
and men who stand ready to jump into action at a moment's 
notice. However, even the fine soldiers cannot fully protect 
our country unless we provide them with the equipment they need 
to perform their jobs.
    I would like to ask a question here. I think one of the 
images that rests in the hearts and minds of most Americans are 
the image from the Katrina relief effort of the Guard 
helicopters rescuing our citizens.
    Do you believe that we could repeat that performance today?
    General Blum. I think we could repeat that performance 
today. And we could do it at an improved level.
    We have, because of the magnificent support of this 
Congress, received $1.5 billion since Katrina that was sent 
specifically to the National Guard to improve its equipment 
situation post-Katrina.
    We testified before the Congress and described exactly what 
it would take, in terms of equipment, specialized pieces of 
equipment, communications equipment, transportation equipment, 
aviation and so forth, what we needed to have an improved 
response, should we ever have to repeat our last, magnificent 
response to Katrina.
    We have purchased that equipment, fielded that equipment, 
and I am confident that we would be able to respond faster and 
better this year than we did even 2 years ago, with no notice, 
in Katrina.
    What does concern me--and General Lempke alluded to it--if 
we do not replace the aging transport aircraft in the Air 
National Guard with this joint cargo aircraft, in the future, 
then 5 years from now, I may not be able to give you the same 
answer I just gave you just now.
    So, this year, we are much better off than we were 2 years 
ago because we have planned with all of the states.
    That chart that I showed you earlier was built by 
Louisiana, with the people of Louisiana, to include FEMA, to 
include the Department of Homeland Security, to include 
Northern Command, to include the National Guard Bureau and the 
state of Louisiana; and all of those states that are shown in 
the right hand column, coming in to help Louisiana, know they 
are coming, know what they are supposed to bring and know what 
conditions will cause them to come.
    So we are far better off than we were last time. Last time, 
for two days, we operated with no communication. We were blind, 
deaf and dumb. And we were doing the best we could, playing 
pinata, trying to hit the target. Because we didn't know what 
we needed to send and exactly where to send it.
    With these new deployable communications satellite systems 
that we have been able to purchase, that are useful for the 
Army and Air Force, overseas, for the war fight, but they are 
equally useful back here at home--this is that dual-use 
equipment we are talking about--we will now be able, and I 
already have prepositioned that equipment so that, when and if 
we were to lose the electrical grid or the communications grid, 
in any state from Maine to Texas, to include the Virgin Islands 
and Puerto Rico, during the hurricane season, we will not 
operate without the ability to communicate.
    Now, we are not going to be able to restore cell service to 
everybody in that commonwealth or state or territory. But we 
will be able to have the critical first responders, police, 
firefighters, emergency services people, National Guard and 
military, that are coming to the aid--Coast Guard and FEMA--we 
can all communicate in a way that we could not do 2 years ago.
    So that is a good-news story. And that is because the 
Congress saw the need; provided us the authority and the 
resources; and then guaranteed, and watched it closely, that 
that money that was intended to get to the National Guard 
equipment accounts got there.
    And then we bought exactly what we said we needed and came 
and reported to this Congress, and proved to them that we 
bought exactly what we said in exactly the amounts that we 
asked for. And it was greatly helpful.
    Ms. Clarke. General Blum, I just want to follow up with 
something you just stated, actually. It is about the $22 
billion over the next 5 years for equipment. The Army National 
Guard could meet 76 percent of the required equipment.
    Is this the fastest that you think you could reasonably hit 
that threshold or with more funding sooner, would you be able 
to acquire equipment faster?
    General Blum. More funding sooner would allow us to acquire 
more equipment faster. It is a fact.
    Ms. Clarke. Thank you very much.
    Thank you, gentlemen.
    Thank you, Mr. Chair.
    Mr. Carney. I thank you, Mrs. Clarke.
    A couple of procedural things. First, I remind everyone in 
the room to put their cell phones or PDAs on vibrate please, or 
turn them off.
    Secondly, I ask unanimous consent that the charts that were 
given out be admitted to the record. No objections, so ordered.
    Okay, we will start a second round of questions.
    General Blum, in recent testimony before the Defense 
Appropriations Subcommittee, you said some very positive things 
about the capabilities of Stryker brigades and their 
applicability to the varied states to the National Guard 
missions. You said that you would love to have a Stryker 
brigade in Katrina.
    Could you elaborate on that statement and explain for the 
committee why Stryker brigades would be so useful in disaster 
response and in homeland security missions?
    General Blum. Well, the Stryker is more than strictly the 
vehicle. It is the whole system of systems that goes with it, 
and they allow you to see the situation far better, to share 
that situational awareness amongst your whole formation so that 
everybody in that Stryker brigade has a much clearer picture of 
what they are facing.
    The communications capability in that brigade is much 
enhanced to the conventional brigade. The ability to move, the 
mobility and operate and decentralize self-contained groups 
is--it is just a much better capability not only in the 
warfight, as we are seeing, because the Strykers are a very 
survivable vehicle.
    In this very unconventional warfare that we are fighting 
right now in Iraq and Afghanistan, Strykers are very, very 
highly rated. The abilities of those brigades are highly rated. 
In combat, they, right now, have a very competitive edge.
    That same competitive edge as a dual use force, for 
instance, your Stryker brigade in Pennsylvania would be highly 
useful because all of those Strykers swim and float. So in a 
flood condition, the Stryker is a very, very fine vehicle.
    If you were in a situation where you had a terrorist or a 
hostile event going on, say you had terrorists operating in 
Pennsylvania, the Stryker brigade probably would be called upon 
again for that because of the protection that that vehicle 
provides its crew members and the fact that it has rubber tires 
and can ride down the streets of Pennsylvania without having to 
rebuild the streets after they have moved through, as heavy 
armor vehicles tend to tear up the streets; Strykers do not.
    So the Stryker is a magnificent vehicle. I would welcome 
Stryker in the National Guard. If the Army wanted to make that 
a requirement for the National Guard to stand up more Stryker 
brigades, we would welcome that and see that as a very positive 
step in the right direction.
    However, just putting Stryker equipment in the National 
Guard without having it an established requirement, an 
established unit--and that requirement rightfully gets 
established by the Department of the Army--the National Guard 
should not establish that requirement.
    I am just saying that the capability of the Stryker in a 
dual-use capacity, a Stryker-type unit is magnificently suited 
for overseas use and it is superbly suited for homeland defense 
and homeland support operations as well.
    And if we were to get more in our inventory than one 
brigade in Pennsylvania, I think most of the states adjutants 
general would welcome that addition.
    Mr. Carney. Thank you, General.
    General Lempke, you mentioned the JCA aircraft in your 
remarks. How will acquisition of this aircraft enhance the 
Guard's readiness and its ability to deliver assets to domestic 
events?
    General Lempke. When the BRAC actions were implemented, a 
number of effects occurred to Air National Guard bases, and we 
ended up losing a certain amount of our tactical airlift out of 
the National Guard.
    Along with that, though, came promises that new missions 
would be found for some of those locations.
    So, on the one hand, we have lost some airlift capability--
and I have been told that about 30 percent of the airlift 
capability that we used for Katrina is no longer available to 
the National Guard.
    The JCA helps fill that gap. It puts it and disperses that 
throughout the nation to provide that quick movement, 
especially of personnel and light equipment, battlefield-type, 
quickly to an emergency situation.
    And when we have talked this morning about regional issues, 
moving things from one state to another state via EMAC, that is 
where the JCA fits in.
    So as I am sitting in Nebraska, knowing what my limitations 
are, but also knowing that I can reach out to Iowa, Minnesota, 
as far as Pennsylvania, you need something like JCA to assure 
that you can get those needs to your state quickly.
    Mr. Carney. Thank you, General.
    Well, we may do a round three, but right now I will turn it 
back over to my friend, Mr. Perlmutter, for more of his 900 
questions.
    Mr. Perlmutter. Thank you, Mr. Chairman.
    When I went through the National Guard commission report, 
going back, again--and this is for any of you gentlemen--one of 
the concerns they raised was retention of your personnel after 
serving in Iraq or back or whatever, that it was kind of--
again, the mission of the National Guard having evolved and 
changed over the last 10 years, really, that there was--and 
they used the long-term viability for both recruiting and 
retention remains highly problematic.
    And they talked about some of your best people are the ones 
that have served, come back, they are highly trained, very 
adept, but the retention levels of those folks just seems to be 
dropping.
    Have any of you experienced that?
    General Blum?
    General Blum. Well, let me take it on a national scene, and 
then I will let the adjutant generals talk about it on a more 
local level.
    On a national scene, overall, our retention is superb, and 
I think it is for two reasons. Congress has appropriated the 
bonuses and the resources that we need to recruit and retain 
the highest-quality young men and women that this nation can 
offer.
    The quality of the National Guard citizen-soldier and 
airmen are second to none. They can compete with the active 
forces and any of the other reserve component forces in a very 
favorable manner. In fact, we are number one in quality of what 
we are bringing in.
    We are also second to none in our ability to recruit and 
grow our force. The National Guard is literally postured to 
grow and, in my judgment, should grow because we need to 
overman the force so that we can meet all of the missions that 
you described earlier, Congressman.
    The Congress have been very good and, lately, the 
Department of Defense has just initiated--January the 11th, the 
secretary of defense has announced a new policy that makes me 
extremely confident that we can sustain this all-volunteer 
force at the same levels that we are enjoying right now.
    We grew 14,000 net gain last year in the Army National 
Guard. Last year was our best recruiting year in the history of 
the volunteer force which now is about 36 years old.
    The reason I am confident we can retain these skilled, 
experienced soldiers is that Secretary Gates has a new, 
reasonable policy where we call the Guard up for 1 year so that 
employers and family members of citizen-soldiers know they are 
going to be away from home for 1 year and they are coming back 
1 year later, and that they will then do the training and 
equipping and all the things that are necessary in a shorter 
period of time.
    And resources will have to be moved to the National Guard 
to equip and train and man that force in the year before they 
go. And then they know with certainty when they are going to 
go, and they know with certainty when they are going to come 
home.
    I think that this certainty makes the employer, the family 
and the citizen-soldier comfortable with being able to manage 
their career, manage their lives and still serve their state 
and nation in a way that will preserve and be able for us to 
sustain the all-volunteer force indefinitely, even at the rate 
we are being used today.
    Mr. Perlmutter. Just as a follow-up to that--and, you know, 
purely anecdotal from my friends from Minnesota, Congressman 
Walz and Congressman Peterson, said that one of their units--
been there a year, was extended as part of the surge. They are 
there an additional, you know, 4 months, 5 months. They don't 
know how long they are going to be there.
    General Blum. You are exactly right. And that is the 1st 
Brigade of the 34th Infantry Division from Minnesota, 
primarily--other states are in there as well, but mostly from 
Minnesota.
    And they were deployed before Secretary Gates established 
the new policy. They were already in-theater. And they had to 
be extended. And, frankly, the fact that they were extended was 
a testimony to how good they were. Because they did not want a 
seam--because they were so proficient, they didn't want a seam 
at that critical time, and they unfortunately were extended.
    That unit will be receiving special attention when it gets 
home. Because it will be the longest serving combat unit in 
Iraq of all the units. Active, Guard, Reserve, Marine Corps, 
Army, you name it, this unit will have spent more time in 
combat than any other unit in the United States Army.
    And when it gets back, the United States Army has committed 
resources and capabilities, working hand in hand with the state 
of Minnesota and the other states that are involved in that 
deployment, to make sure that these soldiers come back, get 
reintegrated and re-brought back into their jobs and their 
families in a way unprecedented before.
    And we are going to put every single thing we can to make 
sure that they get compensated--and I am not talking about 
compensated in terms of cash, I am talking about, we show--
    Mr. Perlmutter. Compensated for their time away.
    General Blum. Exactly. So that we do what we can to ensure 
that they keep their jobs, they get fully reintegrated into 
their civilian jobs again. And those who cannot, we find one 
for them.
    And those that need special training or they need special 
circumstances with their families or their employers, the 
United States Army has made an unprecedented commitment to 
helping the National Guard with that.
    That is a giant step in the right direction, in the 
recognition that it is one Army, one team in this case, and we 
are addressing it that way.
    But you are right to be concerned. We are all unsure as to 
what the long-term effects will be to that brigade.
    I am very optimistic. I think that after they come back and 
are reassimilated and we do what we are supposed to do for them 
and their families and their employers, probably a year later 
they are going to be in a pretty normal state again.
    And I feel pretty optimistic that we are going to retain 
most of the experience in there, because they have invested so 
much and they are so proud of what they have done, rightfully 
proud because they are making a very big difference over there.
    They are an outstanding unit. They are an incredibly 
proficient and good unit. They are really the symbol for the 
citizen-soldier in Iraq.
    So when they come back, I think it is going to be very hard 
for them to walk away from this life-altering experience and 
this investment of time and energy and sweat and blood of their 
comrades, and I think they are going to stay with the team.
    But we have to do everything we can to make it easy for 
them.
    Mr. Perlmutter. Thank you.
    Mr. Carney. Ms. Clarke?
    Ms. Clarke. Thank you very much, Mr. Chairman.
    My questions are for the adjunct generals.
    Mr. Perlmutter. Adjutant.
    Ms. Clarke. Thank you, Mr. Perlmutter.
    In your experiences, when you have sent equipment to other 
states through EMAC, how quickly can you recover the equipment 
once the situation has subsided?
    General Bowen. I guess I have probably sent more troops 
under EMAC than anybody else. During Katrina-Rita, I had a 
thousand task force in Mobile. And then I sent 2,000 to 
Mississippi, and we took everything from Mobile to the 
Gulfport-Biloxi area. Then I had two battalions over in 
Slidell. And then I sent another task force to Louisiana.
    When I send them as a task force--and I send them--and how 
we do that is pretty unique. We send a task force that consists 
of search-and-rescue, a security force, an engineering--because 
we have to cut our way in there. And that is one reason that 
Alabama was into the Gulf Coast before Mississippi was, they 
couldn't get through the highways.
    So we literally--we are equipped with chainsaws, so I take 
that, plus I take a communications unit--Air and Army. The Air 
gives me the long range and the Army gives me the short range, 
so I can communicate between Humvees.
    And when I get a truck for this communication trailer he 
gave me, I will be able to talk to all the local law 
enforcement agencies, also.
    But I take that, and I also take a medical unit.
    So I take a complete task force that is self-sustained for 
about 10 days. And that way I don't have to have fuel, 
anything. I am good for 10 days.
    However long I stay--and what I do in Mississippi is I 
resupplied for 10 days. We stayed 30 days. But when I come out 
at 30 days, I bring everything with me.
    So when you get me, you get all of me. But I take care of 
myself. So I don't leave anything back there.
    Ms. Clarke. Imagine a situation where disaster hits 
somewhere and you need a great deal of equipment to support the 
response. While the equipment is used in response to that 
disaster, there is another catastrophe, this time in your own 
state.
    How well prepared is the National Guard to handle this? 
Would the equipment be there to support the second mission?
    General Bowen. Yes, ma'am.
    My governor was real concerned about that. He was concerned 
when I sent the first one to Mississippi. He was really 
concerned when I sent one to Louisiana, because, you know, we 
had a little one forming off of Panama or Cuba at the time, and 
he wanted to know, ``Do you have enough to take care of 
Alabama?''
    I said, ``Yes, sir, I have enough to take care.'' At the 
same time, I had 1,800 deployed to OIF.
    And I told him, I said, ``I have enough, but I also have 
the EMAC,'' because Kentucky and Tennessee and Georgia were not 
affected and they were prepared to move in to assist me if I 
needed any help, even though my soldiers were in other states.
    Ms. Clarke. Thank you very much.
    And then, my final question is to General Blum: As you 
know, the secretary of defense issued a memo on May 10th, which 
directs that a few recommendations made by the Commission on 
the National Guard and Reserve be implemented at the Defense 
Department.
    In the memo, the secretary refers to a working group he 
commissioned to assess how the National Guard might be arranged 
differently to meet the national security requirements of the 
United States better.
    What was the Guard's involvement in the preparation of this 
memorandum and the working group?
    General Blum. We are deeply involved in that. Secretary 
Gates, as secretary of defense, is very serious and committed 
to restructuring whatever needs to be restructured to make sure 
that the Guard is a full partner in the Department of Defense. 
I think he is very seriously committed to this and he has the 
National Guard, and our equities are involved in all of those 
negotiations, decisions and recommendations.
    Ms. Clarke. Thank you very much, gentlemen.
    And thank you, Mr. Chair.
    Mr. Carney. I thank the gentlelady from New York.
    We will begin a third round of questions.
    First, General Blum, I am thrilled to hear that Minnesota 
is going to receive the help. It is certainly well-deserved. I 
hope other states will get the same kind of help, that it is 
not just Minnesota.
    General Blum. Actually, Chairman, what we are doing is 
using Minnesota as our straw man or our prototype for how we do 
a better job of doing this with other units as they come back. 
So I think your wishes will be fulfilled. I think Minnesota is 
setting the gold standard for how we should be treating our 
returning citizen-soldiers and how we reintegrate them.
    There is a significant commitment by the Department of 
Defense and the Department of the Army in particular to assist 
the National Guard, working hand in hand with us, and actually 
putting significant resources against this, meaning money and 
people to make this happen. And they understand that we need to 
do this not only for Minnesota, we need to do it for the other 
states as well.
    Mr. Carney. Thank you. Any of you gentleman care to 
respond?
    General French? Your head was shaking. You were nodding in 
agreement, I hope.
    General French. I am nodding in agreement. You know, both 
at the state and the federal level, we have received great 
support from our elected officials because there is a general 
understanding, I believe, that the great sacrifice that is 
being made is being made by not only the soldiers and their 
families, but by the employers for the National Guard.
    And it is because of when they return and the effort that 
is being made to recognize that service that I think our 
soldiers are, in fact, extending their enlistments.
    Mr. Carney. General Bowen?
    General Lempke?
    General Bowen. Well, what I am seeing, my 1st Engineer 
Battalion went over there. Average age was 48.5 years. They 
deployed. At this time, it was still 12 months boots on the 
ground.
    I lost a good many of my older soldiers that were in the 50 
to 55 range that had already deployed once or twice somewhere 
else, in Desert Storm probably. So when I got back, I lost 
them, but they had 30 years.
    I noticed the other day when I looked at that unit, the 
average age now is about 30 years of age, so that is good and 
bad. It is good I had the soldiers with experience, but also it 
created upward mobilities. The young soldiers want to get 
promoted, so when I lose some of these older soldiers, then I 
have got young ones ready to take their place, and they are 
good, sharp, smart soldiers.
    So, yes, we went through a little bit of a downer there, 
but, again, it was older soldiers that could easily retire. I 
was not necessarily losing those because of the war. It just 
was the right time in their life and career.
    Probably if I were to do any one thing, I might look at a 
reenlistment bonus for somebody that has got 20 years in, 
because some of that expertise I would like to keep. That is 
one thing that makes the Guard really strong--an operations 
sergeant, for example, that has been an operations sergeant for 
20 years, or an aircraft mechanic.
    I think our rate will compare with anybody and one reason 
is the same guy has been working on the same airplane for 20 or 
30 years, and I would like to retain those people because they 
have got special skills.
    So if I--
    Mr. Carney. It is certainly not the same airplane.
    General Bowen. Probably so. I am afraid so. My KC-135 are 
1960 models, the refuelers. So probably the same airplane. But 
I would like to tell you that I was in Romania this week and 
sat in the cockpit of a MiG-21 that was also built in 1960, so 
it is everywhere.
    [Laughter.]
    Mr. Carney. Thank you.
    General Lempke?
    General Lempke. I guess there is a caution here, I believe, 
as we take a look at the motivations and the health of our 
force. And General Bowen alludes to it a little bit.
    And that is, those that are approaching the vested 20-year 
point in retirement, when you take a look at our officer corps 
in the Guard, by and large, they are prior enlisted. So they 
have a certain amount of enlisted time before they become an 
officer.
    So, many times, you are talking, a National Guard officer 
that has 20 years of service that may be a senior captain or a 
major and has had one deployment. Now they are at risk of 
another deployment.
    And they are also at that time in their professional career 
where they may have to make some decisions with regard to 
strengthening their civilian career or dividing that time up, 
as they have in the past.
    I have seen soldiers, now, officers and senior enlisted, 
that, instead of staying in the Guard and playing it out as far 
as you can go, deciding to hang it up when they have reached 
that point of retirement. And we are losing, in that happening, 
a very valuable, talented resource.
    I think that is an area that needs to be looked at more 
strongly, with incentives, to hang onto those seasoned officers 
and enlisted that are needed to then, later on, move into 
senior leadership positions.
    Mr. Carney. I certainly agree. And that kind of segues into 
my next question. There was an informal poll done by Workforce 
Management Magazine, on its Web site.
    And it asked a question--and you may be aware of this: ``If 
you as an employer knew that a military Reservist or a National 
Guard member could be called up and taken away from their job 
for an indeterminate amount of time, would you still hire a 
citizen-soldier?'' the poll asked.
    Of the 409 respondents on this April 4th poll, 52 percent 
answered no; 32 percent answered yes; 17 percent answered, ``I 
don't know.''
    Are you aware of these numbers, gentlemen?
    General Blum. Yes, Mr. Chairman, I am. And they are of 
great concern to me. And that is why we need to strengthen the 
employer support to the Guard and Reserve program. It is a DOD 
program that is under-resourced for the need today.
    What we are talking about threatens the ability or the 
viability of the all-volunteer force. And what I am most 
concerned about that poll is that probably 52 percent of those 
answers were brutally honest. And there are probably others in 
there that were not.
    So the magnitude of the problem, in this case, is probably 
greater than half of those that responded. And that is of grave 
concern because soldiers will now be reluctant to disclose they 
are in the Guard or the Reserve before they seek employment. 
And then those that come back from a deployment may find it 
harder for re-employment.
    And I think that the Congress of this nation needs to do 
whatever it can to set conditions that are favorable for 
Guardsmen and Reservists to be advantaged in the civilian 
workplace, and certainly not disadvantaged.
    And if they are disadvantaged, we ought to take some pretty 
significant measures, such as we have with the USERRA act and 
other things, and put some teeth into that. But we also need to 
make sure that the Department of Defense employer support for 
the Guard and Reserve apparatus is as strong as it possibly can 
be, because they really are our ombudsmen, our representatives, 
our ambassadors with the nation's employers.
    I know the adjutants general deal with this on a local 
level every day and they may be able to give you some more 
perspective.
    Mr. Carney. I understand. And it seems to me that this is 
truly a malignancy for the Guard and Reserve, that you can't 
detect it, because, to be quite honest, if an employer said 
that, they come under USERRA guidelines and they are going to 
be in trouble. But if it is truly there, I don't know how we 
fight this, certainly.
    General Blum. We may want to look at how do you incentivize 
an employer to hire a citizen-soldier.
    Mr. Carney. In my own experience, I was a professor at Penn 
State while serving in the Reserves, and Penn State, to their 
credit, was very, forgiving of my time when I had to be 
deployed overseas, many times.
    Yes, it is something that really causes me to lose some 
sleep.
    We have just gotten a call for a 15-minute vote. We do have 
a few more minutes, Mr. Perlmutter, if you have any further 
questions.
    Mr. Perlmutter. Just on that same line, and then we will 
end. The same polls and all the graphs are in the commission's 
report, but they questioned spouses. They were asking young 
people whether they are interested.
    And, General Blum, you know, it is great that you had the, 
you know, the outstanding recruiting year. But, you know, you 
have got employers who are beginning to have questions about 
sort of this new mission, if you will, of the National Guard, 
from something that is the final backstop to, really, front 
line: front line on the borders, front line in the war on 
drugs, front line in the war on terror.
    And spouses, you know, the effect on families, you know, 
saying, ``Wait a second, Dad, is this what you really signed 
up?'' Or, ``Mom, is``--you know, ``you are going to be gone for 
a year to Iraq or to Afghanistan?''
    And you know, it is a much bigger question, obviously. 
There has been the decision to transform the military to the 
one military. But I fear--and again, any of you gentleman can 
react--but I fear two things.
    One, it is a drastically changed mission for the Guard, a 
much broader mission--I mean, just that one graph, with all of 
the responsibilities that you have given to your men and women.
    But, you know, my fear is that the protection of the 
country and the response really is secondary, which is the word 
you used, General French.
    How do we change that?
    General Blum. Well, it depends on who ``we'' are.
    [Laughter.]
    Mr. Perlmutter. ``We'' would start with this Homeland 
Security Committee, I think.
    General Blum. I think it is clearly in your authority to 
change it. I think it needs to be job number one. I think we 
are the military first responders in this nation. We are the 
first to fight, yet we are not resourced as the first to fight. 
We are still resourced as we were set up 40 years ago.
    It is time to change the strategies and the policies and 
the laws and the resourcing stream for how the National Guard 
is resourced to do what the National Guard clearly has been 
asked to do by its nation's governors and its nation.
    And I don't think this is going to change and go back to 40 
years ago. I think what we see today is what we are going to 
see tomorrow. And we will see even more of it tomorrow, 
frankly, because of one magnificent thing. We are extremely 
good at it, and we do it much cheaper than anybody else.
    We maintain a 24-hour, 7-day-a-week, 365-day, superb, 
world-class capability, for about 27 cents on the American 
taxpayer's dollar, when we are not being used.
    And when we are being used, it is not a free lunch. And it 
does come at a price with employers--
    Mr. Perlmutter. --spouses--I mean, it is a changed 
approach--
    General Blum. But I would maintain, it would be a big 
mistake, in my view, not to employ the Guard. Any time that we 
have young men and women in harm's way around the world, you 
should in fact send the National Guard as part of that force, 
because when you call out the Guard, you do, in fact, call out 
America.
    And if you send an all-active force, you don't necessarily 
have every community and every town and members of this 
Congress as interested and as aware and your constituents as 
interested and aware and supportive of their successful outcome 
as if you didn't use the Guard.
    So I would say it would be a fatal mistake not to use the 
Guard. And I think that this dual-use force is the best bargain 
for the defense of this nation, both here at home and abroad, 
that we could possibly provide the American citizens.
    The only thing we need to do now is to make sure they have 
the tools in their hands to do the job, so that we don't have 
magnificent people with magnificent training and commitment 
with empty hands, they have what they need to do the job--not 
half of what they need, all of what they need.
    That, to me, is what needs to be fixed.
    And then we very carefully have to watch and make sure we 
can keep the force healthy. Because it is a three-legged stool, 
as you say, it is the employer, it is the citizen-soldier, it 
is their family. And we have to watch all three legs of that 
stool. And that is why I cautioned the strengthening of the 
employer support in the Guard and Reserve apparatus, because 
that survey worries me.
    That survey worries me more than al-Qa'ida worries me, if 
you want to know the truth, because al-Qa'ida is going to force 
patriotic citizens into service. But employers that don't 
support our citizen-soldiers may drive them out of service or 
keep them from joining a magnificent organization like the 
Guard.
    So I am more concerned about what you talked about, Mr. 
Chairman, in that survey than I am in some terrorist thinking 
that they are going to take this country down and that we are 
not going to defend this nation.
    Americans will defend America. But they have to be able to 
do it in such a way that they can maintain a job and a family 
or they may not choose to be part of that organization or 
remain part of that organization.
    Mr. Carney. Thank you.
    General French. Is there time for one more comment on that?
    Mr. Carney. There is, briefly, please, yes.
    General French. Okay, our soldiers want a voice. They want 
to think that they are being represented and that the fact that 
they are militia is being understood. The Guard Empowerment Act 
is a part of that. The Reserve Forces Policy Board, which has 
not been used for the last 2 years, is a part of that.
    One of the greatest frustrations that I hear back from our 
soldiers and the families and employers is that ``We are just 
being called up without the real unique features that need to 
be accounted for when those calls are made.'' It goes to 
predictability. It goes to many other factors.
    So to the extent that we can become more integrated and 
have a larger, a stronger voice within the planning apparatus 
for both our national mission and our state mission is the 
direction that we need to go.
    They are motivated. They just want to feel like their 
concerns and their situations are being understood and 
accounted for.
    Mr. Carney. Well, I want to thank the witnesses for their 
valuable testimony and the members for their questions. It is 
likely members will have further questions of you, and I would 
ask a response in writing quickly. You know, don't let it drag 
out.
    And, on a personal note, I want to thank each one of you 
for your service to this nation and for your advocacy of your 
respective organizations. Thank you, gentlemen.
    This committee stands adjourned.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]


                       Appendix I: For the Record

                              ----------                              


  Letter submitted by the Honorable Christopher P. Carney, Chairman, 
       Subcommittee on Management, Investigations, and Oversight

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



            Appendix II: Additional Questions and Responses

                              ----------                              


  Questions from the Honorable Michael T. McCaul, a Representative in 
                    Congress from the State of Texas

                       Responses from Steven Blum

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Questions from the Honorable Michael T. McCaul, a Representative in 
                    Congress from the State of Texas

                    Responses from Robert P. French

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
